<html>
<title> - INDEPENDENT SOUTH SUDAN: A FAILURE OF LEADERSHIP</title>
<body><pre>[Senate Hearing 114-327]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-327

                        INDEPENDENT SOUTH SUDAN: 
                        A FAILURE OF LEADERSHIP

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                      U.S. GOVERNMENT PUBLISHING OFFICE
21-183 PDF                    WASHINGTON : 2016                      
                    
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a>  
      
      
      
    


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
               Chris Ford, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        

                              (ii)        

 
                          C O N T E N T S

                              ----------                              
                                                                   Page

Akwei, Adotei, Managing Director, Government Relations, Amnesty 
  International USA, Washington, DC..............................    35
    Prepared statement...........................................    36
    Responses to Questions for the Record Submitted to Mr. Adotei 
      Akwei by Senator Cardin....................................    52

Booth, Hon. Donald, Special Envoy to Sudan and South Sudan, U.S. 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     6
    Responses to Questions for the Record Submitted to Ambassador 
      Donald Booth by Senator Cardin.............................    48

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     1

Corker, Hon. Bob, U.S. Senator From Tennessee....................     2

Leavitt, Bob, Deputy Assistant Administrator, Bureau For 
  Democracy, Conflict, And Humanitarian Assistance, U.S. Agency 
  For International Development, Washington, DC..................     8
    Prepared statement...........................................    10
    Responses to Questions for the Record Submitted to Mr. Bob 
      Leavitt by Senator Cardin..................................    54

Lyman, Hon. Princeton, Senior Advisor to the President, former 
  Special Envoy to Sudan and South Sudan, U.S. Institute of 
  Peace, Washington, DC..........................................    20
    Prepared statement...........................................    22
    Responses to Questions for the Record Submitted to Ambassador 
      Princeton Lyman by Senator Cardin..........................    58

Prendergast, John, Enough Project, Founding Director, Washington, 
  DC.............................................................    27
    Prepared statement...........................................    30
    Responses to Questions for the Record Submitted to Mr. John 
      Prendergast by Senartor Cardin.............................    51

                             (iii)        

  

 
                       INDEPENDENT SOUTH SUDAN: 
                        A FAILURE OF LEADERSHIP

                              ----------                              


                      Thursday, December 10, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Cardin, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee meeting will 
come to order. We want to thank everyone for being here.
    A decade after the United States helped regional leaders 
coax the warring sides of Sudan and now South Sudan to end the 
decades-long war that displaced and killed millions, the very 
same type of violence has returned to the region under this new 
and independent leadership.
    Today's hearing will examine the prospect for stabilizing 
the deadly, manmade crisis that has again destroyed the lives 
and hopes of millions of innocent people in South Sudan.
    The peace agreement signed in August offers a vehicle by 
which the parties responsible for this catastrophe might change 
the trajectory of their country. Our witnesses will provide the 
status of U.S. efforts to reverse this post-independence 
descent into violence. I hope they will also explain how we 
ended up in such a complex crisis after the U.S. and 
international community invested so much in a seeming 
resolution to civil war.
    Why has the leadership of the current president and the 
former vice president chosen to mimic the maligned policies of 
ethnic hatred and targeting of civilians to tear apart their 
newly independent country? With 1.6 million people displaced 
internally and an additional 750,000 having fled the country, 
how do these purported leaders justify their involvement in 
fomenting such bloodshed and the resulting humanitarian crisis?
    There are an unprecedented 4 level-3 humanitarian 
emergencies occurring right now in Syria, Iraq, Yemen, and 
South Sudan that are testing the world's capacity to muster an 
effective response, despite the direct interference on the 
ground.
    This hearing is an opportunity to further expose the 
atrocities emerging from the region and appeal to better 
governance, for the sake of 12 million citizens of South Sudan 
and its neighbors.
    In addition to a significant grassroots advocacy by 
constituents here at home and diplomatic engagement involving 
numerous Secretaries of State and the President, we have also 
dedicated billions of dollars to help establish an independent 
South Sudan that is free to achieve its potential in a nation 
blessed with resources. Nonetheless, after such considerable 
investment, the United States continues to commit to peace, 
contributing over $1.3 billion in humanitarian aid in the last 
2 years alone.
    I hope we are learning from our experience over the years 
here and elsewhere to engage more effectively and otherwise 
identify and address the key obstacles to sustainable peace 
that have eluded us this time. I look forward to hearing what 
might be done to end the disturbing violence and restore 
stable, responsible governance in this sad and repetitive case, 
and what mechanisms might be employed to improve the 
international influence toward better outcomes in the future.
    Also I wish to note the presence of officials from the 
Embassy of South Sudan--we thank you for being here--who I hope 
will convey our observations and great disappointment in the 
leadership to date as well as the importance of humanitarian 
access and sustained peace.
    At this time, I will turn it over to our distinguished 
ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. First, let me thank Senator Corker for 
convening this hearing on South Sudan.
    South Sudan is pretty far from here. Most Americans 
probably could not find it on the map quickly, if at all. And 
the brutalities that are taking place there are of great 
concern to the world community, and it is important that we put 
a spotlight on it.
    So, Mr. Chairman, I really do appreciate this hearing.
    As you pointed out, in 2011, there was great hope for the 
newest nation in the world. But I must tell you today, I have 
never been more concerned whether this country will survive.
    The circumstances there are extremely disappointing. As you 
point out, despite the August peace agreements, hostilities 
continue. People are being brutalized, young boys and girls, 
rape camps, the worst atrocities of modern times.
    We all said after Darfur never again, and it is happening 
again. You pointed out that the United States has invested 
billions of dollars. And we have. We are concerned about 
stability in that part of the world, and we are prepared to be 
generous and invest resources for it to work.
    But we are going to have to ask hard questions. And that 
is, looking at the returns, are these investments the best use 
of U.S. resources? We are going to have to ask hard questions, 
because this brutality just cannot continue.
    There have been very difficult circumstances for people to 
try to do their work. The United Nations Deputy Special 
Representative on Humanitarian Coordination Toby Lanzer was 
expelled. Violence against aid workers is rising. And a 
troublesome draft bill governing the operation of 
nongovernmental organizations hangs over the head of 
humanitarian workers. How do we do work there?
    While it is tempting to focus on the immediate call to 
support implementation of the peace agreement, we must also 
look at the long-term viability of South Sudan and how we 
engage with a government that engages in the types of abuses 
that have occurred.
    So I have many questions today, starting with whether this 
peace agreement is viable. It does not look like either party 
is really serious about it. What do we plan to do if the 
parties' ceasefire violations and implementation delays 
continue? Are regional actors willing to maintain pressure on 
the parties to the conflict to monitor adherence to the 
agreement? And under what conditions should we and the 
international community be willing to support the government's 
recovery efforts, considering the parties' questionable 
commitment to the peace process, the level of official 
corruption, and what appears to be complete disinterest by 
those in power to commit to a development agenda that puts 
people of South Sudan first?
    I want to be clear. I stand in support of the people of 
South Sudan. Their courage and resilience in the face of the 
abuse heaped upon them by the very people who are supposed to 
ensure their safety, security, and well-being is truly 
astonishing. I fully support life assistance programs that 
touch at the grassroots.
    However, I remain skeptical about unconditional 
reconstruction packages. I am working on a proposal to 
condition some of the aid on a clear demonstration from South 
Sudan's Government that it will respect the terms of the peace 
agreement and ensure accountability of the egregious crimes 
committed in this conflict and that it will address corruption 
and invest in its own people. And I welcome my colleagues in 
joining me in this effort.
    We must focus our attention on helping the innocents in 
South Sudan recover from the nightmare to which they have been 
subjected.
    I look forward to hearing from our witnesses as to how we 
can achieve that objective.
    The Chairman. Thank you. Thank you for those heartfelt 
comments.
    Now, we will turn to our witnesses. On our first panel we 
will hear from two administration witnesses representing the 
State Department and USAID. The second panel consists of three 
informed experts on the situation in South Sudan.
    Our first witness is Ambassador Donald Booth, the United 
States Special Envoy for Sudan and South Sudan since 2013.
    Thank you for being here.
    Our second witness is Bob Leavitt, the Deputy Assistant 
Administrator for USAID, the Bureau of Democracy at USAID 
Conflict and Humanitarian Assistance.
    We want to thank you both for being here. I know you have 
testified before. If you can summarize in about 5 minutes, 
without objection, we will make your written testimony a part 
of the record. Then we obviously want to ask questions.
    But if you would begin, Mr. Booth, we would appreciate it.

  STATEMENT OF HON. DONALD BOOTH, SPECIAL ENVOY TO SUDAN AND 
     SOUTH SUDAN, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Booth.  Chairman Corker, Ranking Member Cardin, 
thank you for the opportunity to speak before you today.
    The people of South Sudan have no greater friend than the 
United States. We stood with them, as you noted, during their 
long struggle for self-determination. We helped broker the 
comprehensive peace agreement and invested considerable 
resources in the run up to and following their independence.
    But sadly, 2 years after independence, South Sudan's 
leaders decided to squander their country's future and far too 
many lives in a political power struggle.
    Today, thanks in part to U.S. leadership and engagement, 
South Sudan does have a chance for a fresh start. It has the 
opportunity to close the door on conflict and reclaim the 
promise we saw at its birth.
    I want to emphasize up front that the peace agreement 
signed in August, despite all the challenges of implementation 
since then, offers the best chance to put South Sudan back on 
the path to peace and development.
    But the 2-year conflict created a devastating legacy: 2.4 
million people facing severe, life-threatening hunger; 2.3 
million South Sudanese displaced; and an economy in ruins. 
Violence persists in many parts of the country, and there are 
continued reports of heinous abuses of civilians.
    Since the signing of the peace agreement, discussions over 
security arrangements for Juba and the opposition's return to 
the capital have become as complex and drawn-out as the peace 
negotiations themselves. We have heard negative rhetoric from 
the government directed at the United Nations and at countries 
like the United States that are working to support the people 
of South Sudan. And far too regularly, we have heard from both 
the government and the opposition that ``we''--the United 
States and other donor countries--are the ones who must foot 
the bill for peace or else watch South Sudan return to war.
    In response, our message has been clear and consistent: The 
United States has and will continue to support peace in South 
Sudan, but our funding for implementation will be commensurate 
with the seriousness of the commitment of both parties to 
realizing peace.
    And I want to emphasize that the agreement would not have 
come about without the intensive diplomatic efforts of the 
United States. From helping convince the two parties to attend 
the peace negotiations mediated by the Intergovernmental 
Authority on Development (IGAD), to securing an expansion and 
change of mandate for the U.N. Mission in South Sudan, we were 
instrumental in those efforts.
    When the parties signed a cessation of hostilities 
agreement in January 2014, we took the lead in creating the 
monitoring and verification mechanism. And when they kept 
fighting, the United States was in the lead of sanctioning 
those who were leading the fighting, initially bilaterally and 
then via the United Nations.
    In May 2014, Secretary Kerry traveled to the region and 
helped convince President Kiir and opposition leader Machar to 
accept that a transitional government of national unity would 
be the way out of the conflict.
    I spent much of 2014 and 2015 in the region, supporting the 
IGAD mediators and pressing the parties to compromise for peace 
and for the sake of the people of South Sudan.
    In July of this year, President Obama met with regional 
leaders in Addis and helped forge the unity of purpose that was 
needed to convince the parties to sign the compromise peace 
agreement in August.
    In October, Secretary Kerry met with the signatories 
together to reinforce our expectation that they adhere to the 
agreement for the good of their people.
    Since the peace agreement was signed, implementation, 
unfortunately, has been slow and key deadlines have slipped. 
The central obstacle to implementation has been that the 
parties continue to see themselves as adversaries rather than 
as partners in a future transitional government.
    But there has been progress. In early November, the 
government and opposition came to terms on security 
arrangements for Juba, and the opposition advance team is 
scheduled to travel to Juba in the next few days.
    Ambassador Phee and our Embassy in Juba have played an 
important role in countering the misleading narratives of those 
who oppose the agreement and in building support for its 
implementation.
    The Joint Monitoring and Evaluation Commission, or JMEC, 
the body that will oversee implementation of the agreement, has 
begun its work under the chairmanship of Festus Mogae, the 
former President of Botswana. He is a serious and capable 
leader.
    And the parties have jointly committed in writing to form 
the transitional government of national unity in January.
    South Sudan has a roadmap back to peace and stability 
because the peace agreement is as much about reform and healing 
as it is about power-sharing to end hostilities. Specifically, 
the peace agreement requires the transitional government to 
reform the security sector that dominated the state, to inject 
transparency into the public finances, to pursue reconciliation 
and accountability, to draft and obtain popular approval of a 
permanent constitution, and to hold elections.
    True to our values, we intend to support transitional 
justice and the development of a robust civil society. We have 
already committed $5 million to that purpose.
    We also intend to continue to support the South Sudanese 
people, especially the most vulnerable. You have noted the $1.3 
billion of humanitarian assistance we have already provided.
    In cooperation with other donors, we need to be prepared to 
support additional activities as implementation of the peace 
agreement proceeds, including priority areas such as security 
sector reform and reconstruction.
    However, we will insist that the transitional government 
invest its own resources in these areas as well as provide 
ongoing transparent accounting of its public finances.
    Our goal is to get South Sudan's leaders to seize this 
opportunity for peace and to stand up a transitional 
government.
    Finally, South Sudan must close this chapter of conflict in 
order to pursue not only its own rebirth but to better improve 
relations with Sudan through resolution of the issues along 
their shared border, including that of the final status of 
Abyei. The internal strife in both countries has impeded 
resolution of these bilateral issues.
    We remain engaged with the African Union's High-Level 
Implementation Panel and support its efforts to resolve the 
outstanding post-independence issues between Sudan and South 
Sudan, as well as the continuing conflicts inside Sudan in 
Darfur and the Two Areas.
    Getting South Sudan's parties to implement the agreement, 
and bringing lasting peace to South Sudan, will require 
continued, intensive diplomatic effort. We are not naive. There 
are several ways this path can fail, and we would have to 
respond quickly in a manner consistent with any new reality.
    But as I said earlier, the signed peace agreement, for all 
the challenges of implementation, currently offers the best 
chance for peace in South Sudan.
    I thank you, Mr. Chairman, and members of the committee, 
for the opportunity to appear before you today. Thank you.
    [The prepared statement of Ambassador Booth follows:]


                   Prepared Statement of Donald Booth

    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee, thank you for the opportunity to speak before you today.
    The people of South Sudan have no greater friend than the United 
States. We stood with them during their long struggle for self-
determination. We helped broker the Comprehensive Peace Agreement--or 
CPA--of 2005 and ensured that its provisions were respected. We 
invested considerable resources in the run up to and following South 
Sudan's independence in 2011. Sadly, two years after independence, 
South Sudan's leaders decided to squander their country's future and 
far too many lives in a political power struggle. Today, thanks in part 
to U.S. leadership and engagement, South Sudan has a chance for a fresh 
start. It has the opportunity to close the door on conflict and reclaim 
the promise we all saw at its birth as a nation four years ago.
    I want to emphasize up front that the peace agreement signed in 
August, despite all the challenges of implementation since then, offers 
the best chance to put South Sudan back on the path to peace and 
development.
    But the two year conflict created a devastating legacy: 2.4 million 
people facing severe, life-threatening hunger; 2.3 million South 
Sudanese displaced; and an economy in ruins. Violence persists in many 
parts of the country and there are continued reports of heinous abuses 
of civilians. Implementation of the peace agreement is behind schedule, 
and both sides bear responsibility for delays. The November deadline 
for establishing a Transitional Government of National Unity has 
slipped to January.
    Since the signing of the agreement, we have too often heard the 
wrong messages from the government and the opposition. Both sides rush 
to accuse the other of violating the ceasefire or obstructing 
implementation--while themselves violating the ceasefire or obstructing 
implementation. We have watched discussions over security arrangements 
for Juba and the opposition's return to the capital become as complex 
and drawn-out as the peace negotiations themselves. We have heard 
negative rhetoric from the government directed at the United Nations, 
NGOs, journalists, civil society organizations, and at countries, like 
the United States, that are working to support the people of South 
Sudan. And far too regularly we have heard from both the government and 
the opposition that ``we''--the United States and other donor 
countries--are the ones who must foot the bill for peace, or else watch 
South Sudan return to war.
    In response, our message has been clear and consistent: the United 
States has and will continue to support peace in South Sudan. We are 
prepared to support implementation of the peace agreement, but our 
funding for implementation will be commensurate with the seriousness of 
the commitment of both parties to realizing peace.
    And I want to emphasize that the agreement would not have come 
about without the intensive diplomatic efforts of the United States. We 
helped convince President Kiir and opposition leader Machar to send 
delegations to peace negotiations mediated by South Sudan's immediate 
neighbors and fellow members of the Intergovernmental Authority on 
Development--or IGAD. We secured the expansion of the U.N. Mission in 
South Sudan--or UNMISS--and refocused its mandate on protection of 
civilians, humanitarian assistance delivery and human rights 
monitoring.
    When the parties signed a cessation of hostilities agreement in 
January 2014, we took the lead in organizing and funding the Monitoring 
and Verification Mechanism--or MVM--and when they kept fighting, we 
were the first to sanction those leading the fighting, first 
bilaterally and then through the United Nations with the backing of the 
international community. Secretary Kerry's May 2014 trip to Addis and 
Juba convinced President Kiir and opposition leader Machar to meet face 
to face and to accept a transitional government of national unity as 
the way out of conflict. I spent much of 2014 and 2015 in the region, 
supporting the IGAD mediators and pressing the parties to compromise 
for peace.
    In July of this year, President Obama met with regional leaders in 
Addis and helped forge the unity of purpose that was needed to convince 
the parties to sign the compromise peace agreement in August. In 
October, Secretary Kerry met with the signatories to reinforce our 
expectation that they adhere to the agreement they signed and work 
together for the good of their people. Throughout the crisis we kept up 
a drumbeat of calls from senior Administration officials to South 
Sudanese and regional leaders to keep the peace process moving forward.
    It has long been clear that no agreement was going to succeed 
without the active engagement of countries in the region through IGAD, 
particularly Uganda, Sudan, Kenya, and Ethiopia; and so it was crucial 
that any agreement be something the region could support. To bolster 
the IGAD process, the United States and other partners joined together 
as IGAD-Plus, to bring our collective leverage to bear as the region 
coalesced around an agreement amenable to all stakeholders. Maintaining 
our engagement with the region and other international partners will be 
vital to seeing the peace agreement implemented. The renewal next week 
of the UNMISS mandate will be an opportunity to further equip UNMISS to 
play a crucial role in supporting implementation of the agreement.
    Since the peace agreement was signed, implementation has been slow 
and key deadlines have slipped. The central obstacle to implementation 
has been that the parties continue to see themselves as adversaries, 
rather than as partners in a future transitional government. But there 
has been progress. In early November, the government and opposition 
finally came to terms on security arrangements for Juba and other key 
towns. The advance team of opposition officials is scheduled to travel 
to Juba tomorrow. Ambassador Phee and our Embassy in Juba have played 
an important role in countering those in the government camp who 
opposed the agreement and in building grass roots support for the 
agreement's implementation. The Joint Monitoring and Evaluation 
Commission--or JMEC--the body that will oversee implementation of the 
agreement and act as an arbitrator between the parties when 
disagreements arise, has begun its work in Juba under the chairmanship 
of Festus Mogae, the former President of Botswana. He is a serious, 
capable leader. The parties jointly committed in writing to form the 
transitional government of national unity in January.
    South Sudan has a roadmap back to peace and stability because the 
peace agreement is as much about reform and healing as it is about 
power sharing to end hostilities. Specifically, the peace agreement 
requires the transitional government to reform the security sector that 
dominated the state, to inject transparency in the public finances, to 
pursue reconciliation and accountability, to draft and obtain popular 
approval of a permanent constitution, and to hold elections under that 
new constitution.
    Our immediate priority is to help establish the institutions needed 
to implement and oversee execution of the peace agreement. We are 
providing support to stand up the JMEC, perhaps the most critical 
institution in ensuring adherence to the agreement. We will also 
support a reformed and re-energized ceasefire monitoring mechanism--the 
Ceasefire and Transitional Security Arrangements Monitoring Mechanism, 
or CTSAMM--as well as the National Constitutional Amendment Commission 
and the Joint Operations Center.
    True to our values, we intend to support transitional justice and 
the development of a robust civil society, including support for 
religious and women's groups. In May, Secretary Kerry committed $5 
million toward supporting a credible, impartial, and effective 
mechanism to help end the cycle of impunity and vengeance that helped 
fuel the conflict. This funding could support the hybrid court that the 
parties committed in the peace agreement to create under the auspices 
of the African Union.
    We also intend to continue to support the South Sudanese people, 
especially the most vulnerable groups, such as refugees and IDPs. The 
United States has been the single largest donor of humanitarian 
assistance for South Sudan, providing more than $1.3 billion since the 
start of the conflict.
    In cooperation with other major donors, we need to be prepared to 
support additional activities as implementation proceeds, including 
priority areas such as security sector reform; disarmament, 
demobilization, and reintegration of former combatants; reconstruction 
of infrastructure in devastated urban centers like Bor, Bentiu, and 
Malakal; and reform of South Sudan's public financial management. 
However, we will insist that the transitional government invest its own 
resources in these areas as well as provide ongoing transparent 
accounting of its public finances.
    The goal of our efforts is to get South Sudan's leaders to seize 
this opportunity for peace, and to stand up a transitional government 
capable of building the nation's institutions in order to provide basic 
services to its citizens. It must be ready to draft a new constitution; 
to heal the wounds of war through truth and reconciliation efforts and 
credible accountability mechanisms; and to build the country's economy 
and imposing rigor and transparency in its public financial management. 
And, finally, it must be ready to guide South Sudan to free and fair 
elections after three years.
    We will continue to provide much-needed assistance to support these 
critical reforms. But let me be clear: our support for implementation 
will be proportional to the commitment of the South Sudanese leaders 
themselves. While we understand that it will take time for President 
Kiir and opposition leader Machar to rebuild enough trust to work 
together constructively, and for the transitional government to 
function as envisioned in the peace agreement, the government and the 
opposition must show that they are committed to this agreement, and to 
choosing peace over war, if we are to commit further U.S. resources.
    Finally, South Sudan must close this chapter of conflict in order 
to pursue not only its own re-birth, but better relations with Sudan 
through resolution of the issues along their shared border, including 
the final status of Abyei. The internal strife in both countries has 
impeded resolution of these issues. We remain engaged with the African 
Union's High Level Implementation Panel (AU-HIP) and support its 
efforts to resolve the outstanding post-independence issues between 
Sudan and South Sudan as well as the continuing conflicts inside Sudan 
in Darfur and the ``Two Areas'' of Southern Kordofan and Blue Nile 
states.
    Bringing the South Sudanese parties to the table required an 
intensive diplomatic effort. Getting the parties to implement the 
agreement, and bringing lasting peace to South Sudan, will require no 
less. Peace will be a process, not an event. It will require the 
sustained engagement and attention of the United States and the unity 
of purpose of IGAD, the African Union, and other key international 
partners. Moving South Sudan's leaders to take steps in implementing 
the August peace agreement, which is backed by the region and the 
international community, is the best way to start a virtuous cycle in 
which the parties to the conflict, as well as ordinary South Sudanese, 
begin to see the rewards of peace, and thus reduce their willingness to 
go back to war.
    We are not naive; there are several ways this path can fail, and we 
would have to respond quickly in a manner consistent with any new 
reality. But, as I said earlier, the signed agreement, for all the 
challenges of implementation, currently offers the best chance for 
peace in South Sudan.
    Thank you, Mr. Chairman and members of the committee, for the 
opportunity to speak and for your continued commitment to the people of 
South Sudan.
    The Chairman. Thank you very much.
    Mr. Leavitt?

   STATEMENT OF BOB LEAVITT, DEPUTY ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
  U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, D.C.

    Mr. Leavitt. Chairman Corker, Ranking Member Cardin, and 
members of the committee, thank you for the opportunity to 
discuss the situation in South Sudan today, and thank you very 
much for your support.
    Today, I would like to provide an update on the 
humanitarian situation, share how we are making a difference, 
and highlight how our programs assist the people of South 
Sudan.
    As Special Envoy Booth has just highlighted, the peace 
agreement signed in August is the best chance for a return to 
peace and development. Its implementation is urgently needed.
    The conflict in South Sudan has created a dire situation. 
Warring parties have brutalized civilians, perpetuating a cycle 
of violence and revenge. Women and children have been raped, 
killed, and burned alive. Over 2.3 million South Sudanese have 
fled their homes and lost everything.
    Today, South Sudan is one of the most food-insecure 
countries in the world. Up to 2.4 million people in South 
Sudan, 20 percent of the population, face life-threatening 
hunger this month. The numbers will only increase in early 
2016. People have resorted to eating water lilies and grass to 
survive.
    Our partners face challenges reaching these people in need, 
especially in the hardest hit areas of the Greater Upper Nile 
Region.
    Despite these challenges, though, we are doing everything 
possible with our diplomatic colleagues to save lives. The 
United States is the largest donor to the people of South 
Sudan, providing $1.3 billion in humanitarian assistance. Our 
staff and partners have helped avert famine for 2 consecutive 
years.
    In October, I saw firsthand how we are making a difference 
on the ground. Several colleagues and I flew by helicopter from 
government-controlled Malakal to opposition-controlled Wau 
Shilluk, a remote area in the Greater Upper Nile Region. 
Hundreds of South Sudanese greeted us as we landed.
    Several months before then, these very people were nearly 
inaccessible due to conflict. It was humbling to meet such 
incredibly resilient people.
    It was also at the same time inspiring to see our staff, 
our partners, do whatever it takes to reach such people in 
need. But it was also disappointing that we must continue to 
rely on such complex air operations to get that job done. It 
was there that we saw three large air operations at that time.
    Every day, aid workers, 90 percent of whom are South 
Sudanese, are saving lives. They endure daily obstacles to 
reach people. Warring parties have assaulted and killed aid 
workers and interfered with the delivery of humanitarian 
assistance for the people.
    USAID staff and our partners are relentless, constantly 
innovating to reach people as safely and efficiently as 
possible. They deploy teams with lightweight packs to deliver 
assistance. They use canoes. They use tractors to navigate 
tributaries and swamps. They find new routes to get to people 
in need.
    Thanks to their efforts, we reach 1.28 million people with 
our assistance, and that is the story behind the $1.3 billion 
figure. We provide them with food, water, health care, and 
trauma support. We have also shifted our long-term assistance 
to more directly meet the needs of the people of South Sudan.
    As over 400,000 children have lost access to school during 
this crisis, we have moved our education program to provide 
emergency education, standing up 629 emergency learning spaces 
in the country, enrolling 130,000 children who are in them, 
including children demobilized from armed conflicts. Providing 
an opportunity for education demonstrates our commitment as the 
American people to the people of South Sudan and to its next 
generation.
    We have helped protect civilians, especially women and 
children. We empower women to make informed decisions so they 
can access water, hygiene, and other needs safely. We have 
helped bolster civil society and expand access to independent 
radio in eight states in the country to better inform South 
Sudanese about the status of the peace agreement and its 
implementation.
    In achieving these results, we have worked closely with 
donor, NGO, and U.N. partners, including the U.N. Peacekeeping 
Mission in South Sudan that continues to save lives daily. We 
appreciate the support of our diplomatic colleagues, both here 
in Washington and in Juba. We also appreciate our committed 
USAID staff both in Washington and in the field.
    For decades, successive administrations, the U.S. Congress, 
and the American people have stood by the people of South 
Sudan. We remain committed to working with the people of South 
Sudan through this difficult situation, but this is a critical 
time as they move along the path to peace.
    For our assistance to be most effective, all parties must 
allow unfettered access to aid workers to reach those in need, 
wherever they may be.
    However, no amount of assistance will end the suffering. 
Only peace will.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Leavitt follows:]

                   Prepared Statement of Bob Leavitt

Introduction
    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee, thank you for the opportunity to discuss the situation in 
South Sudan, and for your continued support.
    Today, I would like to provide an update of the situation on the 
ground, share how we are making a difference and saving lives, and 
highlight how we have adapted our programs to help the people of South 
Sudan achieve a lasting peace.
Situational update
    Two years of conflict in South Sudan has created a devastating 
humanitarian crisis. The peace agreement signed in August provides the 
best chance for a return to peace and development. Its implementation 
is urgently needed. The people of South Sudan are suffering and the 
humanitarian situation is only getting worse. Response teams cannot 
reach people who need aid the most, especially in the Greater Upper 
Nile Region, due to local clashes and authorities denying access.
    Civilians have borne the brunt of the violence since the conflict 
erupted in December 2013. Warring parties have failed to protect 
civilians. Warring parties have reportedly killed and brutalized 
unarmed civilians, perpetuating cycles of retribution and exacting 
reprehensible cruelty. The African Union Commission of Inquiry and 
human rights organizations have documented flagrant atrocities. Several 
United Nations (UN) reports recount allegations that warring parties 
gang-raped and burned women and children alive in their homes; 
castrated, raped, and killed children; and forcibly recruited as many 
as 16,000 children. These allegations demand a full and impartial 
accounting as implementation of the peace agreement moves forward.
    More than 2.3 million South Sudanese have fled their homes in 
search of safety and protection, since December 2013. Almost one 
third--nearly 655,000 people--fled to Ethiopia, Sudan, Uganda, and 
Kenya. Combined with refugees who had fled before the crisis, a total 
of 770,000 South Sudanese refugees are now unable to return home. These 
countries generously support South Sudanese refugees in the midst of 
other stresses, including the El Nino-related drought in Ethiopia.
    Two thirds of those displaced by this conflict--1.7 million 
people--remain internally displaced in South Sudan, mostly in remote 
areas. Others have sought refuge in protection of civilians sites that 
were established on the bases of the U.N. Mission in the Republic of 
South Sudan (UNMISS). Two weeks after the crisis began, 60,000 people 
were sheltered there.
    Two years later, approximately 185,000 people remain in overcrowded 
protection of civilians sites on six UNMISS bases. The Bentiu and 
Malakal sites more than doubled their population this year. We applaud 
UNMISS for receiving and protecting civilians on its bases. This 
unprecedented act saved lives. The untenable situation at these sites 
underscores the urgency of all parties to stop fighting, create stable 
and secure conditions, and resume essential services so that civilians 
can return home safely. As of now, displaced persons remain fearful of 
returning home. The U.S. Government will support informed, voluntary 
returns or relocation only when it becomes feasible and safe to do so.
    Up to 2.4 million people in South Sudan--or 20 percent of the 
population--face life-threatening hunger this month. This figure is 60 
percent higher than last December. It will increase to 2.6 million and 
higher in early 2016 as the limited harvest runs out. In fact, today, 
South Sudan is one of the most food-insecure countries in the world. 
People have resorted to eating water lilies and grass to survive in 
remote areas. A quarter of a million children suffer from severe acute 
malnutrition. The situation could become worse without immediate and 
consistent access for aid groups.
    The warring parties have set back development gains. According to 
UNICEF, 57 percent of government health facilities have been destroyed 
or are not operational in the Greater Upper Nile Region (Unity, Upper 
Nile, and Jonglei states). More than 800 schools have been destroyed 
during the conflict. Over 400,000 children have lost access to schools, 
bringing the total number of children out of school to 1.8 million.
    The economy is in a state of near collapse. Food, safe drinking 
water, and other basic goods are less available and less affordable due 
to rising inflation and currency depreciation. Across the country, food 
prices are up to 150 percent above average. The cost of fuel is also 
up, which makes delivery of assistance more expensive.
Access challenges
    Our teams and partners are doing everything possible to reach those 
in need with assistance. The operating environment remains challenging 
and risky. Humanitarian workers face daily security, logistical, and 
bureaucratic impediments, especially in the Greater Upper Nile Region.
    Warring parties continue to target humanitarian staff. Since the 
conflict began, at least 40 humanitarian workers have lost their lives. 
In October of this year alone, the U.N. documented more than 78 
incidents nationwide in which warring parties looted supplies, robbed 
offices, assaulted aid workers, or interfered with aid operations. In 
June, the government expelled the UN's top humanitarian official. This 
incident brought attention to the challenges all of our partners are 
facing, but it is important to note that most of the aid workers under 
attack are South Sudanese. More than 90 percent of aid workers in non-
governmental organizations (NGOs) are South Sudanese who risk their own 
lives to help fellow citizens.
    Warring parties complicate aid delivery in what is already a tough 
place to operate. South Sudan has very little infrastructure, and rain 
makes large parts of the country inaccessible by road for months at a 
time. Bad roads are made worse by criminals who harass aid trucks.
    Thus, our partners often rely on river barges to deliver aid. When 
government and opposition forces ramped up fighting in April and May, 
the barges were caught in the crossfire, disrupting their passage to 
Unity, Upper Nile, and Jonglei states. In July, the government closed 
off the Nile River entirely. To reach people around Malakal, the 
largest city in that area, our partners resorted to air operations, 
which are five times more expensive than delivery by barge.
    Our partners also face bureaucratic impediments. The government has 
repeatedly refused requests from impartial humanitarian organizations 
to airlift food or other critical relief aid to people in need. Aid 
workers must spend precious time that should be used reaching people, 
haggling with military and political leaders from all sides over 
access. South Sudanese authorities have denied visas for aid workers, 
denied delivery of cash or equipment to opposition-held areas, and 
charged exorbitant fees for the registration of NGOs.
    These restrictions are unacceptable under any circumstances, but 
they are especially taxing at a time when our humanitarian dollars and 
operations are stretched thin by an unprecedented number of protracted 
crises around the world.
U.S. response
    Notwithstanding immense challenges, the United States is leading 
the effort to help the people of South Sudan through these tough times. 
The U.S. government is the largest donor to the response for the South 
Sudan humanitarian crisis. We have provided more than $1.3 billion in 
emergency assistance for conflict-affected people in South Sudan and 
South Sudanese refugees in the region since the start of the crisis. We 
also work closely with other donors to speak with one voice and 
coordinate our responses to needs, including being sensitive to 
conflict dynamics and ensuring our activities do not inadvertently 
intensify or trigger additional tensions.
    In late October, I saw firsthand how we are making a difference. 
Several UN, donor, and Department of State colleagues and I flew by 
helicopter from government-controlled Malakal to opposition-controlled 
Wau Shilluk, a remote area across the river in the Greater Upper Nile 
Region. We saw our partners, including the U.N. World Food Programme 
(WFP), World Vision, and others, providing assistance in an area that 
they could not reach earlier. As we met community groups, it was 
humbling to be with such incredibly resilient people. As we met aid 
workers and watched three large air deliveries of food, it was 
inspiring to see their resolve to do whatever it takes to save lives. 
It is also disappointing that we must resort to such complex measures 
to help those in need.
    We are working as effectively and efficiently as possible by 
leveraging the expertise of our partners. Drawing on experiences from 
around the world, they are using creative tactics to reach people who 
would otherwise be cut off from aid. For example, one USAID partner 
reached remote displaced populations in Upper Nile State by navigating 
river tributaries and using tractors to cross swampy terrain. WFP has 
expanded road routes to adapt and reroute when violence or other 
obstacles get in the way. WFP has found new places to land in support 
of air operations. WFP also works with the governments of Sudan, 
Ethiopia, Kenya, and Uganda to bring aid across each of their borders 
to maximize efficiency. UNICEF and partners have reached over 880,000 
people--a quarter of whom are children under age five--by deploying 
mobile teams to quickly deliver aid in hard-to-reach areas. Food for 
the Hungry has used canoes and an extensive community network to 
distribute seeds to communities in need.
    Our partners are improving the everyday lives of people in South 
Sudan. We reach approximately 1.3 million people per month with food, 
clean water, health care, and trauma support. For two consecutive 
years, U.S. government assistance has helped avert famine and supported 
communities that would otherwise be at greater risk. We have encouraged 
and supported Ethiopia, Kenya, Sudan, and Uganda in keeping their 
borders open to receive and host South Sudanese refugees. Yet, with 2.4 
million people facing severe hunger each month, and humanitarian 
appeals significantly underfunded, more needs to be done.
Adapting our response to support peace
    We are doing all we can, but we are deeply disappointed that the 
government is not acting in the best interest of its people. It is 
clear that we must match our steadfast goodwill toward the people of 
South Sudan with demands for accountability by the government and all 
parties. They must stop harassing aid workers and NGOs, grant full, 
unhindered humanitarian access, and take credible steps towards peace.
    USAID has shifted its long-term assistance from helping to build 
the institutions of the new South Sudanese state to more directly 
meeting the needs of the South Sudanese people. We have withdrawn all 
technical advisors we previously provided to government ministries, 
with the exception of the Ministry of Health, where our advisors are 
needed to support life-saving programs and avoid the spread of disease. 
We have expanded support to protect and empower women, educate 
children, safeguard civil society, and support independent media.
Supporting women
    We are protecting civilians at risk of violence, especially women 
and children who have suffered unspeakable brutality at the hands of 
armed actors. For instance, at the protection of civilians site in 
Malakal, USAID provided lighting around the site's perimeter to 
increase safety and visibility for women and girls who can be at risk 
of sexual violence after dark. We also support seven partners across 
South Sudan to reduce the risk of Gender-Based Violence (GBV) and 
provide survivors with safe spaces and clinical and trauma care. They 
have reached 950,000 people with information on GBV prevention and 
response in 2015. We also integrate GBV prevention in all programs. For 
example, in water, sanitation, and hygiene programs, we empower women 
to inform decisions that will make it safer for women to access water 
facilities.
    We are also providing women with opportunities to make a living and 
keep their families healthy. Our assistance has helped women like 
Nyakuoth, a widow with five children whose husband was killed when 
fighting broke out in her village this past May. Nyakuoth and her 
children lived in the bush for three months, eating wild leaves to 
survive. Thanks to our medical care and therapeutic foods, she was able 
to revive her malnourished children. We also provided her with seeds 
that she is saving for a peaceful harvest. ``I pray for peace to 
return,'' she told our partner, ``so that we can go back home and plant 
crops to feed [my] children.''
Educating children
    If South Sudan is to have a peaceful future, we must create 
opportunities for the next generation. In partnership with UNICEF, 
USAID is providing emergency education services to internally displaced 
children, including those in protection of civilians sites and 
opposition-held areas. The program has established 629 temporary 
learning spaces across six states (Lakes, Unity, Jonglei, Upper Nile, 
Central Equatoria, and Eastern Equatoria). We have enrolled nearly 
130,000 children and adolescents, including recently demobilized child 
soldiers. USAID partners have also helped to reunite nearly 2,400 
children with their families.
    We have also helped equip a new cadre of female educators. Fourteen 
women scholars returned to South Sudan over the summer after earning 
Master's degrees in Education in Emergencies at Indiana University. An 
ethnically diverse group selected from across South Sudan, they are now 
equipped to teach tolerance and understanding among South Sudan's 
diverse communities.
Supporting civil society and independent media
    South Sudanese civil society and media play a pivotal watchdog 
role, but they face an increasingly difficult operating environment 
that includes legal impediments, security threats, and hostile 
statements from the government. We are working to prevent the closing 
space for civil society organizations by ramping up support to improve 
their operational security and advocacy skills. We are especially 
concerned about a bill under consideration in South Sudan's National 
Legislative Assembly that could negatively impact civil society and our 
humanitarian partners. We have engaged the government to revise 
elements of the bill, but encourage the Assembly to allow for greater 
consultation and feedback from civil society on this legislation. We 
are also deeply concerned about a new National Security law that gives 
sweeping powers to the National Security Service to arrest and detain 
activists and journalists.
    To advance the formal peace process, we are supporting civil 
society groups and independent media channels so that they can inform 
the South Sudanese public about the peace agreement and its 
implementation. We support community consultations where partners 
distribute copies of the agreement, translate it into local languages, 
and discuss how it might impact these communities. We also support 
independent radio, the primary means of reaching people in South Sudan; 
the radio stations we assist reach millions of listeners.
Conclusion
    The U.S. government remains committed to saving the lives and 
aspirations of the people of South Sudan. However, no amount of 
assistance will end the suffering; only peace will. We remain concerned 
that ongoing clashes continue to make it challenging, or even 
impossible, for people to receive desperately needed aid or to resume 
their lives in some of the hardest hit areas. Both sides must show a 
credible and unequivocal commitment to implement all elements of the 
August peace agreement without delay.
    All warring parties are required by international humanitarian 
principles to ensure impartial humanitarian access to people in need 
across conflict lines throughout all of South Sudan.
    Through concerted diplomacy, we must continue to push to ensure all 
parties respect this most basic principle. We greatly appreciate the 
work of our Department of State colleagues both here in Washington and 
in the field to urge respect for these principles. All humanitarian 
staff--from top U.N. officials to truck drivers delivering lifesaving 
food--must be free to carry out their work free from violence or 
retribution. Harassing those who are saving lives in South Sudan 
ultimately punishes the vulnerable and traumatized people who need them 
most.
    Working hand-in-hand with the people of South Sudan to save lives 
in difficult circumstances has created strong bonds among aid workers. 
While in Juba recently, I saw the extent to which members of the 
humanitarian community look out for each other. A USAID colleague came 
to a high-level meeting with a backpack full of high protein bars and 
supplies--a care package bought at her own expense--for NGO partners 
who had staff preparing to travel through swamps and difficult terrain 
to deliver aid. Their solidarity runs deep.
    The commitment of our partners and the resilience of the South 
Sudanese inspire us. Our commitment to the people of South Sudan makes 
a difference, saving lives and setting a path to the future. The people 
of South Sudan deserve to live in communities free from harm. It is 
with these men and women in mind that we remain steadfast in advancing 
USAID's mission to partner to end extreme poverty and promote 
resilient, democratic societies while advancing our security and 
prosperity.


    The Chairman. Thank you both for your testimony. It is 
disheartening, at a minimum.
    So, Mr. Leavitt, you talked about all the challenges that 
we have in delivering aid. I certainly appreciate some of the 
examples that you gave. But from what we understand, the United 
Nations and humanitarian partner organizations have been 
specifically targeted by government and proxy forces, including 
the apparent targeting of senior officials and humanitarians 
delivering to millions displaced by atrocity.
    So how do we push back against such impunity toward this 
humanitarian imperative? How do we do that? I mean, I would 
assume that, in some ways, the aid that we are providing is 
actually helping these government officials, is it not?
    Mr. Leavitt. Thank you very much for the question. We very 
much share your concern. We are, of course, very much concerned 
about the safety of aid workers.
    The Chairman. Let me just, specifically, are government 
officials targeting them?
    Mr. Leavitt. The rhetoric has not been positive in South 
Sudan. There has not been a positive rhetoric that accepts that 
aid workers are there to help. There has not been the message 
that well over 90 percent of all aid workers are South 
Sudanese, many of whom are putting themselves at risk to help 
the people----
    The Chairman. So are government officials and/or proxies 
targeting people delivering humanitarian aid?
    Mr. Leavitt. The aid workers have been affected by both 
parties, yes, sir, government and opposition forces.
    The Chairman. We have people here from the Embassy of South 
Sudan. I would just say you ought to be embarrassed. I do not 
know how you can come to the hearing like this, representing 
the Government of South Sudan, knowing that we have expended 
$1.3 billion on behalf of the people that you represent and you 
are targeting aid workers. I would be embarrassed to be at a 
hearing like this.
    I would be embarrassed to send out the kind of press 
release that you sent out prior to this hearing.
    I do not know what kind of government you represent.
    Let me ask you this. Does the aid that we provide help in 
any way stabilize the government that is there?
    Mr. Leavitt. Our assistance goes to the people of South 
Sudan. Since this conflict began, our humanitarian assistance 
goes directly, in tandem with our partners, the U.N. and 
nongovernmental organizations, goes directly in support of the 
people of South Sudan.
    Our long-term assistance at one point was working in 
support of the government ministries as they were established 
in 2011. We have since changed that assistance since 2013 and 
early 2014, changed it to support programs that go directly to 
the people.
    So just as an example, we used to provide support through 
advisers in the Ministry of Education to help build up that 
ministry. But as a result of the outbreak of conflict, we have 
shifted that assistance to emergency learning centers, in 
tandem with our partner UNICEF, so that assistance with the 
U.N. goes directly to the people and not with and in support of 
the ministry.
    The Chairman. Mr. Booth, thank you for your efforts 
relative to the peace agreement. We all know how difficult the 
situation is there.
    I would just ask both of you, since this agreement has been 
reached in August, has there been any greater access relative 
to humanitarian assistance or is it pretty much the same?
    Ambassador Booth.  Mr. Chairman, let me give you one 
example of the efforts that our Embassy in Juba has made that 
has resulted in an increase.
    Our Ambassador engaged directly with the Governor of Unity 
State, which has been the scene of much of the fighting that 
has continued since the signing of the peace agreement, and was 
able to achieve agreement to allow both humanitarian workers 
and the U.N. mission to send some of its troops into Leer in 
Unity State to access populations that in the past have been 
denied.
    We have been working on the ground in South Sudan. There 
are many other examples of where our Embassy and our AID 
colleagues there have been out in the field pushing the 
envelope.
    Mr. Leavitt mentioned the trip that he did where they were 
able to cross lines in Upper Nile State from government-
controlled Malakal across the Nile River into the opposition-
controlled areas. That effort resulted in greater access to 
people who had been in dire need.
    But we are not able to reach everybody. There continues to 
be harassment of aid workers, of assistance delivery.
    The Chairman. By government officials and/or their proxies?
    Ambassador Booth.  I think it is at a more retail level. It 
is not an official policy that has been pursued. But as Mr. 
Leavitt said, the negative rhetoric about the U.N. mission has 
contributed to a sense that you can attack these people with 
impunity.
    We have urged that the rhetoric be changed, that the U.N. 
and those providing assistance be recognized as helping the 
people of South Sudan. We continue to push both government and 
opposition on access and on getting to a more positive 
rhetoric, so that aid workers are in less danger.
    The Chairman. Let me ask you this. Have government 
officials in any way helped escort the United Nations personnel 
and/or others that are delivering through canoes and doing the 
other kind of things that have occurred? Has there been any 
assistance by the government itself to ensure that this aid 
reaches people who are in such need?
    Ambassador Booth.  The problem, in general, has come where 
the government says, ``We cannot guarantee your security if you 
go to this location.'' Or the opposition says, ``We cannot 
guarantee your security if you go to that location.''
    So this game has been played to try to discourage delivery 
of assistance to areas that are on the other side. Again, we 
continue to push very strongly. ``We are not asking for your 
guarantees. The U.N. is not asking for your guarantees. What we 
are asking is simply that you give us the assurance that they 
will be safe in areas you control.''
    In general, we have gotten cooperation in that regard. But 
there is the area in between, and there is a lot of retail 
freelancing that goes on that makes this a very difficult 
problem to get on top of.
    The Chairman. Thank you, both.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    My children's generation grew up with Darfur as their 
battle call for international humanity. They got engaged in 
that campaign because of the brutalities that were taking place 
in Darfur. They said never again. It is happening again.
    A peace agreement is the best option, if it is viable. The 
ceasefire has not been adhered to. People are being brutalized. 
The target date for the coalition government has come and 
passed, and there is no coalition government.
    What is plan B, in order to protect the people of South 
Sudan? Does the international community with U.S. leadership 
have a plan B, so we are not faced with a growing and 
longstanding endangerment of the people of South Sudan, as we 
saw in Darfur?
    Ambassador Booth.  Thank you very much, Senator, for that 
question. It really is at the crux of what we grapple with 
every day, how to move this peace agreement forward so that the 
fighting really does stop and this brutality does stop.
    Again, our engagement with the parties has been consistent. 
As I noted, there has been progress.
    I think one of the key things in moving toward the 
establishment of the transitional government will be the return 
of opposition delegation to Juba, which is expected literally 
within the next few days. Our Ambassador just had a meeting 
today in Juba with both government and opposition to work out 
some of the details of this.
    That will be a very important event. With the opposition 
sitting in Juba, it will be much easier for President Mogae and 
the joint monitoring commission and the other mechanisms 
foreseen in the peace agreement to operate and for some of 
these mechanisms, such as the joint military command center to 
oversee the ceasefire, that that will be up and running. So 
far, the opposition has not had people there to participate in 
those.
    I think this will be a fundamental change.
    But if this does not move forward, and I think the critical 
thing is, it is a little bit dangerous to start talking about 
plan Bs, because they tend to undermine what you are trying to 
push forward, which is implementation of this peace agreement.
    But clearly, one of the things that we have done is we have 
change the mandate of UNMISS to focus on protection of 
civilians. We are now in New York. By the 15th of this month, 
we will be renewing that mandate and are supporting the request 
of UNMISS for additional troops and police in order to expand 
this protection mission and also to enable UNMISS to be 
supportive of the peace agreement.
    Senator Cardin. I want to follow up on that. But first, I 
join the chairman and thank you for your leadership, I also 
thank the United States for what we are doing, as well as our 
international partners and the United Nations, for what they 
are doing. It is a very tough environment. We understand that, 
and we appreciate the great personal sacrifices that the people 
on the ground in South Sudan are making in order to save lives. 
They have our strong support, let me make no mistake about 
that.
    But I would give you my assessment. I think Congress will 
pass a plan B, it is a matter of when, if the peace process 
does not go forward. I am not sure what that plan B is going to 
be. I do not want to undermine the peace process, but we will 
not tolerate the status quo. We just will not.
    So I just urge us to have a very candid discussion of the 
realities on the ground and what actions we can take to protect 
the population.
    Yes, the United Nations has been effective. As I understand 
it, they have several protected sites. A couple hundred 
thousand are protected. There is a much larger population that 
is not protected.
    What do we do about that population? Increase the size of 
the U.N. mission? Fine. But there are still going to be 
hundreds of thousands at risk. If the peace process does not 
move forward, what do we do to protect those hundreds of 
thousands? And what do we do to hold those who have committed 
these atrocities accountable?
    Ambassador Booth.  Well, accountability is one of the 
issues that we, in the process of negotiations of the peace 
agreement, fought very hard to keep front and center. There is 
an agreement of the parties that not only should there be 
truth, healing, and reconciliation, but there should also be 
accountability. And the parties have agreed to the 
establishment of a hybrid court under the African Union.
    I also want to mention within a week of the outbreak of the 
conflict, within 2 weeks of the outbreak of the conflict, the 
African Union held a summit of its Peace and Security Council 
and established a Commission of Inquiry, which was headed by 
former Nigerian President Obasanjo. And the report that he and 
his team have compiled and the fact that the A.U. has now 
released that report I think sends a very strong signal that 
their African neighbors, not just the broader international 
community but Africa itself, is focused on ensuring that there 
is accountability for the atrocities that have occurred and is 
sending a signal to try to prevent those in the future.
    Senator Cardin. Secretary Kerry announced $5 million in 
support, I believe, of the accountability initiative. So what 
is the status of the establishment of the hybrid court? Do you 
envision that there will be a need for direct U.S. support for 
the hybrid court? Or international community support for the 
hybrid court? How do you see going after at the highest levels 
those who are responsible for the atrocities that have been 
committed?
    Ambassador Booth.  If I recall the peace agreement 
correctly, I think the hybrid court, the deadline for 
establishing that is toward the end, November or December, of 
2016. We have been engaging the African Union, which is 
responsible for establishing that court, and encouraging them 
to continue to move forward.
    We have also started our own effort for documentation, 
collecting documentation for events that have happened, so that 
South Sudanese can get on the record what has happened. This 
information collected by the U.N. panel of experts, by UNMISS, 
by the monitoring and verification mechanism, all of these will 
be fed into this hybrid court.
    Senator Cardin. Let me make this observation. I had a 
conversation with Ambassador Power here yesterday. She was in 
your seat before this committee on U.N. peacekeeping.
    Being held accountable for atrocities and violations of 
international standards is not a matter between the two 
political sides of South Sudan. There is an international 
interest that those responsible are held accountable. It is not 
left up to the parties. We prefer the country to take care of 
it itself. If it cannot, then the international community must 
respond.
    Do we have your commitment that the United States will 
carry out its traditional role of making sure there is an 
effective accountability institution established so that the 
people of South Sudan know the perpetrators will be brought to 
justice?
    Ambassador Booth.  I can assure you, Senator, that we very 
much are committed to seeing that there will be not only 
reconciliation but accountability. We believe that 
accountability is going to be critical to ensuring or at least 
diminishing the chances that there is repetition of what has 
happened in South Sudan. We believe we need to give the African 
Union the opportunity to form this hybrid court and that we 
should support it. And yes, we probably will be coming to seek 
funding to support that effort. And we will continue to push 
them to move forward as quickly as possible.
    Senator Cardin. So do not take this personally, because I 
very much respect the work you are doing--I mean that--and your 
commitment to justice. That is sincere.
    I just wish our diplomats would be clearer on this issue. 
You give too much of a diplomatic response. The answer is that 
the United States needs to exercise strong international 
leadership that the perpetrators of these atrocities will be 
held accountable, period, the end. We will use every means we 
can so that never again means never again.
    Thank you.
    The Chairman. Just out of curiosity, before we move to the 
next panel, just by virtue of acknowledging what Senator Cardin 
just said, would it not mean that with any standard court, both 
the leader and the former vice president would end up in jail 
very soon? I am just curious. I mean, it sounds to me like 
incredible atrocities are being created and done by both of 
them and their proxies. Would not any standard court mean that 
both these folks that we are dealing with will end up in jail 
very soon? I am just curious.
    Ambassador Booth.  Well, I think that is a decision that 
has to be made by a competent judicial authority, the hybrid 
court being the one that has been agreed upon for dealing with 
this in South Sudan. Clearly, the African Union Commission of 
Inquiry report has pointed in the direction of responsibility 
from the highest levels.
    The Chairman. So we are basically negotiating with people 
that we assume are going to be in jail very soon. Is that 
correct?
    Ambassador Booth.  Well, that has been the great conundrum 
of this and many other conflicts, that the people who are 
fighting are the ones that you have to get to negotiate.
    But as I said in my testimony, the peace agreement is about 
more than just power-sharing to stop the fighting. It is about 
a program for reform, which they have committed to undertake 
and to which the international community will be holding them 
responsible.
    That is why the JMEC, the Joint Monitoring and Evaluation 
Commission, was created under the peace agreement and is headed 
by a former president, a respected president in Africa. We are 
a member of that committee. And we, indeed, will be ensuring 
that the reform element of the peace agreement and the 
accountability elements are carried out, as well as just the 
power-sharing.
    Thank you.
    The Chairman. Listen, we thank you both for being here. I 
think, especially as a result of this hearing, but because of 
the atrocities that are occurring, I think you are going to 
find both of us pursuing these judicial issues that you are 
referring to.
    Again, I do not know how representatives from South Sudan 
can show up at these types of meetings without being totally 
embarrassed by the actions of the government. I know we 
probably do not have representatives from the opposition here.
    But we thank you both for your work and certainly are very 
despondent over what is occurring there at present.
    Thank you.
    Senator Cardin. Mr. Leavitt, if there is anything we can do 
in regards to more effective delivery of humanitarian 
assistance, please let us know.
    The Chairman. Thank you.
    So we will now move to our second panel. We again thank you 
for the service of both of you and hopefully we have helped you 
in some way this morning.
    All right, we thank you for being here.
    Our first witness will be Ambassador Princeton Lyman. He 
has been here before. He is a former U.S. Special 
Representative for Sudan and South Sudan and currently the 
senior adviser to the president of the U.S. Institute of Peace.
    We thank you very much for being here. I enjoyed seeing you 
recently.
    The second witness will be John Prendergast, someone we see 
often, the founding director of the ENOUGH Project and former 
National Security Staff Adviser for African Affairs.
    Thank you so much.
    Our third witness will be Adotei Akwei, managing director 
of the government relations for Amnesty International.
    We thank you for your service to the world.
    If you all could summarize your comments in about 5 
minutes, we look forward to questions. Again, thank you all for 
being here.
    If you would just start and go in order, that would be 
good. Thank you.

   STATEMENT OF HON. PRINCETON LYMAN, SENIOR ADVISOR TO THE 
PRESIDENT, FORMER SPECIAL ENVOY TO SUDAN AND SOUTH SUDAN, U.S. 
               INSTITUTE OF PEACE, WASHINGTON, DC

    Ambassador Lyman.  Thank you very much, Mr. Chairman. Thank 
you for holding this hearing. I appreciate that the full 
testimony can be put in the record.
    You have heard already about the scope of this tragedy. I 
will not go into more detail. But the situation on the ground 
is, in fact, very grim. Fighting continues. Atrocities are 
being carried out. Some of the fighting has extended into new 
areas like Western Equatoria.
    I would like to do several things here. I would like to 
address some of the questions you and Senator Cardin have 
raised, specifically the validity and fragility of the present 
peace agreement, questions of justice and accountability, and a 
plan B, if necessary.
    First, let me just mention, we have a long history in the 
United States, bipartisan, of being involved and engaged in 
problems in Sudan, starting with President George W. Bush's 
selection of former Senator John Danforth as a special envoy, 
playing a major role in the comprehensive peace agreement. That 
has continued on with President Obama, appointments like 
Ambassador Booth and the actions of President Obama and 
Secretary Kerry.
    We have done this over the years because problems in Sudan 
and South Sudan affect the security of a very sensitive region 
in Africa and the Red Sea area, which is the Horn of Africa, 
and we are concerned about the people who have suffered under 
these wars.
    The security consideration continues today. So does the 
moral consideration.
    I can understand the despair and even the anger in having 
to deal with this situation when so much has been squandered, 
but I think we have a commitment and a need to do whatever we 
can to address it.
    Now, the African countries have traditionally been in the 
lead in these negotiations, and rightfully so, because they are 
affected most directly. And if you put any major sanctions on, 
like an arms embargo or trade embargo, they have to enforce it.
    IGAD, the neighboring countries under the Intergovernmental 
Authority on Development, have been leading this peace process. 
But they have been divided. Sudan and Uganda are rivals for 
influence in this area, carrying on almost a proxy war in South 
Sudan. Ethiopia and Kenya have had their disagreements. People 
in all these countries are involved in one way or another in 
the arms trade or economic activities.
    Although IGAD has frequently suggested that it would 
recommend an arms embargo or tougher sanctions, it has never 
done so, and because it does not do so, it is impossible for 
the Security Council to impose an embargo and sanctions and 
hope that such things will be enforced. So African unity is 
important.
    Now, IGAD has accomplished a lot. As Ambassador Booth 
pointed out, a peace agreement has been painstakingly put 
together. But it is fragile, and it is fragile for several 
reasons.
    One, as has been noted, it relies heavily on the actions 
and cooperation of the two people who are leading the war, 
President Kiir and former vice president Riek Machar.
    Second, the security arrangements that are involved--that 
is, each side brings forces into Juba to protect themselves and 
each other--is not a prescription for security and safety.
    Third, there has to be much more international involvement 
in making this agreement work. So let me speak to what I think 
are three things that need to be done by the Africans, by the 
U.N., and by the United States to help make this agreement 
work.
    First, on the part of the Africans, they have appointed, as 
has been pointed out, a very distinguished African leader, 
Festus Moghae, to head of the Joint Monitoring and Evaluation 
Committee overseeing this agreement. But he should be given the 
powers of a high commissioner. He should have the powers to 
call the parties to order, to veto appointments that make no 
sense, make appointments of his own, take control over the 
budgetary and economic aspects of the government, and recommend 
to IGAD and to the African Union and the Security Council 
further sanctions if the parties do not carry these things 
forward.
    Second, the hybrid court, no, not the end of 2016. The head 
of the hybrid court should be appointed now because working 
hand in glove with Festus Moghae, that is where you put 
pressure on the parties to move forward under this agreement.
    Third, I think on the security arrangements, either an 
enhanced UNMISS or a special African Union force has to be 
added to the mix, if there is going to be security in Juba or 
in the other major cities to make this system work.
    Now on the part of the United Nations, Senator Corker, you 
are absolutely right to press for who is attacking the U.N. and 
undermining it. I find it shocking that the Government of South 
Sudan has for a long time spoken against UNMISS, denigrated its 
work. And we know that patrols going out, brave patrols going 
out, are being shot at by various entities.
    The Sanctions Committee of the U.N. has launched an 
investigation of who is blocking the peace process. The final 
report of that committee is going to the U.N. probably this 
month to be examined by the Security Council, hopefully made 
public. And I hope it will provide the answers that you asked 
for as to exactly who is doing this, who is responsible for 
attacks.
    I would add that when the U.N. renews UNMISS this month, it 
should make clear again that attacks on U.N. peacekeepers is a 
war crime and those responsible will be pursued and made 
accountable.
    I would like to see that same legal precedent for attacks 
on aid workers. Forty-one aid workers have been killed in South 
Sudan. That too requires accountability.
    Getting the hybrid court up is good and important, but the 
U.N. has a responsibility as well.
    Let me turn to the United States and the work that 
Ambassador Booth and the administration are doing; it is 
terrific, but it takes more push. President Obama did a very 
important thing when he was in Addis, I think it was in July. 
He called the parties together. He called the IGAD heads of 
state together and said: We need more urgency in this process. 
The U.S. is prepared to go ahead with its own sanctions. We are 
prepared to take other steps.
    That helped inject urgency and it led, I think in large 
part, to the final signing of the peace agreement. But the 
peace agreement lags. It is fragile. It is in trouble.
    At the next meeting that IGAD holds with its international 
partners, I would like to see Vice President Joe Biden go and 
inject the same sense of urgency that these parties must move 
forward, for additional steps made to strengthen the 
international role, and make it happen.
    Finally, let me get to Senator Cardin's question about plan 
B. Let me first talk about other things I want the U.S. to do, 
and I know the U.S. is already doing some of these.
    Peace agreements necessarily in the end involve bringing 
the guys with the guns to the table, but peace agreements do 
not last if they rest on that alone. Now, on paper, this is a 
very comprehensive peace agreement. It calls for a new 
constitution. It calls for economic reform. It calls for a lot 
of things.
    But those two leaders are not committed to those actions. 
So you have to bring in civil society. You have to bring in 
women's groups. You have to bring in other professionals. And 
the United States can lend very strong support in this peace 
process to their participation, and insist upon it.
    Now let me turn to plan B, if this fails. I think the only 
way then thereafter is to raise this problem to a much higher 
level, to having a meeting at the U.N. of relevant heads of 
state, and I would see the United States playing a major role, 
which comes to an agreement with all the major countries 
involved on several steps, an arms embargo, a trade embargo on 
anything except food and medicine. Let us starve the fighting, 
not the people. Let us make sure that all the other mechanisms 
of accountability are set up. And then the Africans must commit 
to enforcing those bans all along their border. Then you have a 
joint U.N.-A.U. mediator move forward together on a new, more 
comprehensive process.
    This is the only way, it seems to me, raising it to a much 
higher level, taking much tougher steps on the parties, if this 
current agreement does not succeed.
    Thank you very much. I am sorry to go over on my time.
    [The prepared statement of Ambassador Lyman follows:]

                Prepared Statement of Princeton N. Lyman

    The views expressed in this testimony are those of the author and 
not the U.S. Institute of Peace, which does not take policy positions.


    Chairman Corker, Ranking Member Cardin, and members of the Senate 
Foreign Relations Committee, thank you for holding this hearing. It is 
an honor to appear before you today to present my views on the current 
civil war in South Sudan and how it may be brought to a close. The 
views I express today are my own and not necessarily those of the U.S. 
Institute of Peace (USIP), which does not take policy positions.
Overview
    The civil war in South Sudan is one of the great tragedies in the 
world today. It also is undermining the stability of one of the most 
sensitive regions in the world, the Horn of Africa. Indeed, it is for 
that reason that the United States has been strongly engaged over more 
than a decade to bring peace to what is now Sudan and South Sudan. That 
commitment was exemplified with President George W. Bush's appointment 
in 2004 of former Senator John Danforth as Special Envoy for Sudan, to 
help bring about the Comprehensive Peace Agreement (CPA) that ended the 
war between the north and south of Sudan that had gone on for more than 
seventeen years. The U.S. commitment continued under President Obama 
with similar senior level appointments and with constant and close U.S. 
attention to implementing the CPA, the culmination of which was South 
Sudan's gaining, peacefully, its independence in 2011.
    U.S. engagement is no less critical now as it has been in the past 
in addressing this new crisis. I can imagine the feeling of despair and 
indeed anger in the U.S., especially among the long-time supporters of 
the Sudan peace process, that the leaders of South Sudan have so 
betrayed their people and wasted the opportunity that independence 
provided. That makes it harder to gear up for even more effort by the 
U.S. But the needs of the South Sudanese people are great with nearly 2 
million people displaced and more than 7 million in desperate need of 
food aid. The U.S. already has spent more than $1 billion on 
humanitarian assistance in this situation. The threats to regional 
stability are also no less great than in the past when this area was 
engulfed in war. We are, finally, invested in this process. Walking 
back would be morally wrong.
The African lead
    But our role as in the past is integrally linked to what the 
Africans do. It was the neighboring African countries who led the 
negotiations of the CPA and enabled us to play our role in support. It 
was the Africa Union's High Level Implementation Panel, led by former 
South African President Thabo Mbeki, which led the hard but ultimately 
successful negotiations implementing the CPA, to which again the U.S. 
could thus lend strong support.
    Today the neighboring African countries under the Intergovernmental 
Authority on Development (IGAD) lead the peace process in South Sudan 
backed by the Africa Union and other AU members. African leadership is 
an essential element in bringing about peace. For it is the African 
countries, especially the neighbors, who are most affected by the 
crisis and who are also in the best position to enforce whatever 
international pressures are placed on the parties. Moreover, it is 
clear from past experience that if the African countries in a crisis 
situation are divided, the U.N. Security Council will be similarly 
divided on the steps to be taken, or even if united be unable to 
enforce any strong sanctions on the parties.
    Unfortunately, IGAD is divided over this current crisis, making it 
difficult for it to take strong action. Though it frequently threatened 
an arms embargo and other sanctions on the contenting parties it never 
reached consensus on them and never recommended such to the U.N. 
Security Council. Members Uganda and Sudan are sharply divided 
politically and for a time have used the situation to carry out a proxy 
war between them. Ethiopia and Kenya have differed at times over how to 
move the peace process forward. Several of the members, and/or their 
private sectors, are involved in the arms trade or other economic 
activities that militated against supporting economic sanctions or an 
arms embargo. Somewhat to address these problems, the AU created IGAD 
Plus Five, adding other African countries to the process, which has 
helped in some ways to get more traction but added new and sometimes 
competing processes to the mix. Finally IGAD Plus was created which 
opens the door to broader international participation, including the 
U.S., UK, Norway, China, the Arab League, and others.
    Despite its problems, IGAD has achieved much. It began with an 
impressively comprehensive approach to what would be required to bring 
lasting peace to South Sudan. It envisioned a broadly based process of 
political transformation covering reform of most of the political, 
social, and economic institutions of the country. Little by little, 
however, as the contending parties proved unresponsive to every effort 
to stop the fighting, breaking every cease fire agreement and proving 
impervious to threats of sanctions and punishment, IGAD moved to what 
might be described as a lowest common denominator for a peace process. 
That is, the two contenders--Salva Kiir and Riek Machar--would be 
called upon to come together once more in a government of national 
unity and work out together the changes necessary. IGAD has put 
together, painstakingly, this peace agreement which both sides have now 
signed.
    It is still on paper a most comprehensive agreement. It includes 
the fundamental transformational changes necessary for a lasting peace. 
But it is extremely fragile. It depends too heavily on the cooperation 
and commitment of the contending parties, especially the leaders Kiir 
and Machar to implement these far reaching reforms, but who in fact 
have little incentive to do so. It sets out transformational processes 
and procedures which are commendable but which cannot possibly be 
accomplished in the time frames proposed. Most important, these reforms 
are unlikely to be implemented without strong international 
involvement. It is thus so fragile as to be doubtful of success. But it 
is the only peace process under way. Doing everything possible to make 
it work is thus the best thing we can now do.
Fundamental weaknesses that threaten the agreement
    As you know I served as the U.S. Special Envoy for Sudan and South 
Sudan from March 2011 to March 2013. I have spent many hours and 
sleepless nights seeking to understand what went wrong in South Sudan, 
and why the hopes and dreams of the South Sudanese people have been so 
tragically betrayed. But I do not want to provide a history here today 
nor attempt a full examination of what went wrong. That will be 
important over time, especially for our understanding of peace 
processes in the future. I do however want to point to those causes of 
the conflict that bear on the potential for resolving it, and in 
particular on the peace agreement which the parties have recently 
signed.
    I commend to the attention of all those concerned with this crisis 
the report of the Africa Union's Commission of Inquiry on South Sudan, 
headed by former Nigerian President Olusegun Obasanjo. That report is 
hard to read because it lays out in horrific detail the human rights 
violations--committed by both side--in this conflict. But the report is 
more than that. The authors undertook a careful and extensive 
examination of the institutions that should have been bulwarks against 
the outbreak of civil war--the ruling party (SPLM), the legislature, 
the judiciary, the military, the police, and civil society. All of them 
were inadequate to the challenge of keeping the rivalries among the 
leaders from spinning out of control. Of those I want to emphasize two: 
the ruling party and the military. Without understanding the weaknesses 
of those institutions, the peace agreement as now configured will 
almost surely fail.
The SPLM
    The Sudan People's Liberation Movement (SPLM) emerged during the 
second of South Sudan's revolt against the north as the dominant party 
in the south. But South Sudan did not win its independence largely 
through a political process as much as a military one. Throughout the 
civil war, the dominant institution in the revolt was the Southern 
People's Liberation Army (SPLA) and the various factions and militia 
that eventually unified under it. All the leaders of the SPLM have been 
drawn from the military. That remained true after independence. In sum, 
the independence movement in South Sudan, embodied in the SPLM, was a 
military one with a weak political wing. By contrast in South Africa 
the anti-apartheid movement was largely a political one, fueled indeed 
by civic action and civil violence, but the ANC--the leading party--was 
inherently a political institution with only a small military wing. The 
African National Congress (ANC) has thus been able to manage its 
political rivalries--every much as challenging--within the structures 
of the party and without national upheaval.
    The SPLM does have important symbolic and national importance in 
South Sudan. But its weakness as a political institution was revealed 
when Vice President Riek Machar indicated his intentional in 2012 to 
challenge President Salva Kiir first for leadership of the party and 
subsequently for the presidency. Given the history of Machar in the 
1990s and the reported slaughter of Dinka when he was leading a revolt 
against the SPLA at that time, this was a fundamental challenge, 
reviving ethnic rivalries and bitter memories. It was a crisis that 
would try the capabilities of a sophisticated political party. But in 
the case of the SPLM, the party mechanisms were far too easily set 
aside by the President. Bypassing the party machinery, suspending its 
Secretary-General, and taking an aggressive military response to the 
challenge, Kiir made the party largely irrelevant.
    I raise this because there is some hope, pressed largely by South 
Africa and Tanzania that the SPLM could serve as the unifying 
institution in South Sudan, overcoming the fissures that developed 
between President Kiir and Vice President Machar. This was the basis of 
the so-called Arusha process, which operated parallel to that of IGAD 
and developed a set of principles that would allow for a new reunified 
SPLM government as a vehicle for peace and for reform. But the SPLM as 
a political institution does not have either the political support 
among the contending forces in South Sudan nor real dedication to 
common principles, especially to the principles of party democracy, for 
such a process to succeed. As has quickly become evident, the 
government of President Kiir has not honored the principles agreed in 
the Arusha process and the former Secretary-General of the SPLM--Pagan 
Amun--who championed the Arusha approach, is once again in exile. The 
SPLM may have an important role in the future political dispensation in 
South Sudan, but it is not able at this time to be the principal 
political vehicle for either peace or reconciliation.
The SPLA
    The Sudan People's Liberation Army (SPLA) is the other institution 
that might have been expected to provide a sense of national unity and 
stepped in to prevent the breakdown that occurred. But throughout the 
Sudan-South Sudan civil war, there was in fact little unity among the 
South Sudanese fighting units. Abetted in many cases by Khartoum, 
various militias, usually ethnically based, broke with the main SPLA/
SPLM and fought against it. In the run-up to the referendum on South 
Sudan's right of self-determination, Salva Kiir did a remarkable job of 
bringing all these various units together in support of independence 
and as part of a single national army. But it was an incomplete unity. 
The various entities were enticed in by generous payments and high 
ranks for the leaders, and little integration of forces. As pointed in 
the Commission for Inquiry, the SPLA had as many as 700 generals. Units 
with few exceptions remained ethnically based. Loyalty to the national 
army was fragile, with some militia going in and out of the system, 
requiring new negotiations, new payments, and new tentative agreements.
    As the tension between President Kiir and Vice President Machar 
grew in 2012, President Kiir began creating a special Presidential 
Guard made up of people from his home area, and outside regular army 
control. This only exacerbated the divisions within the SPLA. In the 
aftermath of the events of December 2013, the SPLA fractured along 
ethnic lines with Neur and Murle based units decamping to the 
opposition under Riek Machar.
    The point here is that the SPLA, either in its present form or 
recreated into the ``unified'' form as before the current civil war, 
cannot act as unifying institution. Security sector reform, creating a 
truly national army loyal to the state not to a single party or leader, 
is of course desirable, and is included in the plans of the peace 
agreement. But such reform will be extremely difficult to undertake 
given the composition of current units, the attitudes of today's 
leaders, and the lack of a unifying national political narrative or 
institution. That means that security for the peace process must come 
largely from outside.
Implications for the peace agreement
    There are three conclusions from this analysis.


  <diamond> One is that African countries and institutions--IGAD, the 
        IGAD Plus Five, the AU Peace and Security Commission, the AU 
        Commission--have to be united and firm in enforcing this 
        agreement on the parties.
  <diamond> Second, additional security must be provided to protect the 
        proposed government of national unity and the reform process, 
        as well as civilians caught up in the war.
  <diamond> Third, only the international community can assure that the 
        transformational aspects of the agreement--constitutional 
        change, free elections, justice, protection of human rights and 
        free speech, active civil society participation, 
        reconciliation, economic and financial transparency and 
        accountability, and security sector reform--will be acted upon. 
        Neither of the leading contenders--Salva Kiir nor Riek Machar--
        have a stake in these processes. Indeed they will find them 
        threatening to their continued and rivalling ambitions for the 
        presidency of the country.


    Thus there is a need for stronger action from Africa, the UN, and 
the U.S.
Africa's role
    The peace agreement will only succeed if the AU and its members are 
prepared to enforce it. The agreement provides for a high level Joint 
Monitoring and Evaluation Committee, headed by former Botswana 
President Festus Moghae. To be effective in this role, Moghae should be 
accorded by the AU the authority of a High Commissioner, someone who 
can call the parties to order, demand performance, veto bad 
appointments, make his own appointments when there is inaction, and 
recommend as necessary sanctions or other pressures upon the parties. 
He must especially have authority over the financial and budgetary 
processes of the transitional government, for corruption and financial 
irregularity rank as among the most destabilizing and dishonorable 
aspects of the government including when Kiir and Machar were tougher 
in office. This is a tall order for the AU, but it is essential.
    Second, the AU must select urgently the Judge of the Hybrid Court 
that is to address issues of justice arising out of the Commission of 
inquiry and its conclusions that crimes against humanity have been 
committed. Working hand in hand, President Moghae and the Hybrid Court 
can wield the necessary influence to force transformational change upon 
the parties.
    Third, the AU must strengthen quickly the Ceasefire Transitional 
Security Arrangements Monitoring Mechanism (CTSAMM) which is to monitor 
the cease fire, cantonment of troops, and related matters. The CTSAMM 
moreover must add women to its ranks to assure that gender issues are 
being addressed in a context where much gender violence has and 
continues to take place. Its reports, which are to be made public, 
should provide the basis for firm action by IGAD, the AU and as 
appropriate the UNSC. Fourth the AU must conclude that security in 
Juba, a sine qua non for establishing the government of national unity, 
requires more than the security forces of the parties and creation of 
joint police units, as now envisioned in the security agreement. These 
security institutions are part of the problem and are very unlikely to 
work in concert or objectively. Right now not only has the opposition 
leader not come to Juba, but the arrangements for his doing so, with 
his own security contingent, is almost a predictor of violence. An 
enhancement of the U.N. Mission to South Sudan (UNMISS), or a related 
AU force is necessary.
The U.N. role
    UNMISS has done an extraordinary job in the midst of this conflict. 
Some 200,000 civilians have been taken into UNMISS camps for protection 
and defended against attacks by belligerents. In spite of harassment 
and being shot at by forces from both sides in the conflict, UNMISS 
continues to send out patrols, facilitate humanitarian aid, and as much 
as possible protect the 1.7 million displaced. It is shocking that the 
Government of South Sudan continues as it has for several years to 
speak out against UNMISS, have its forces fire on U.N. peacekeepers, 
and to denigrate its work.
    The UNSC is scheduled to renew UNMISS's mandate this month. In 
doing so, it should expand the mandate to allow UNMISS to play a more 
active role in the securitization of Juba, and reinforce its protection 
mandate. Further, the UNSC should put the leaders of the SPLM and the 
SPLM/IO on notice in the strongest possible terms that any attack on 
U.N. peacekeepers is a war crime and will be investigated and 
adjudicated. The same should apply to attacks on aid workers, 41 of 
whom have been killed since December 2013.
The U.S. role
    The U.S. will have to continue to play a major role in alleviating 
the humanitarian crisis caused by the war. Without that, there is 
little hope for the people of this war-torn country. The dedicated work 
of the U.S. Special Envoy, Ambassador Donald Booth, and his team has 
contributed greatly to the progress that has been made toward a peace 
agreement and their work must continue as well with strong support from 
the White House. But there is more that must be done to bring about an 
end to the war.
    How can the U.S. be most effective? We have a good example from 
President Obama's actions during his visit to the AU in Addis in 
August. Obama took the opportunity to call together the leaders of IGAD 
and the contending parties and urge them to find agreement on a peace 
plan. He made it clear that the U.S. was prepared to add sanctions of 
its own on the leaders of the war, and to press for such from the UNSC 
if agreement was not reached. The meeting created more urgency and 
purpose within IGAD and helped bring about the peace agreement recently 
signed. As progress on implementing the peace agreement drags on--the 
lack of adequate security in Juba, the failure yet to create a 
government of national unity, the delay in appointments for the Hybrid 
Court, etc.--there is again need for high level U.S. pressure. At the 
next meeting of the IGAD Plus, Vice President Joseph Biden, should 
attend, He should inject the same level of urgency, readiness for U.S. 
actions, and support, that President Obama provided in Addis.
    Second, the U.S. should be prepared to provide support to exactly 
those transformational elements of the peace agreement that are most in 
danger of being ignored. Many civilians who have been pushed aside by 
the war, and many more displaced from their homes, would be ready and 
willing to contribute to this process. The World Bank pointed out some 
years ago that more than half of peace agreements fail with the parties 
going back to war. One element in success is the participation of broad 
elements of society, not just the ``guys with the guns.'' The Institute 
of Inclusive Security points out that the percentage of peace 
agreements that succeed rises dramatically to the extent that women are 
involved. Yet including civil society and meaningful women's 
participation in the peace process is always difficult. It is resisted 
by the belligerents, is often inhibited by lack of organization and 
skill by civil society, and is often set aside by mediators fixed upon 
getting the contending parties--the ``guys with the guns''--to the 
table. The U.S. should provide financial and political support for 
civil society, women's groups and individuals, for the professionals 
assigned to constitution drafting committees and judicial reform, and 
for economic reform institutions, reconciliation processes, and other 
aspects of participation of non-belligerents in the transformation 
process.
    Finally, the U.S. should defend strongly a free media--something 
the Government of South Sudan has drastically curtailed over the past 
three years. Since as early as 2012, journalist in South Sudan have 
been harassed, beaten and in some cases assassinated. As one recent 
example, the Free Voice, a peace programming group partnered with the 
U.S. Institute of Peace, was shut down despite it having no partisan 
leanings. A leading newspaper was shut down at the same time. These 
practices must be stopped and the perpetrators punished. With limited 
other outlets for expression of opinion and accountability, a free 
media is an essential adjunct to this peace agreement.
And if it fails
    Given all its problems and fragility, this peace agreement may 
collapse. Even now fighting and atrocities continue. If it fails then 
the issue must be raised to an even higher level.
    The issue must become the subject of a heads of state level meeting 
at the UN, with the strong participation of the U.S., along with major 
African heads of State, AU leaders, our European partners and major 
humanitarian organizations. There should be an agreement at that 
meeting on a series of steps to restrict the fighting, such as an arms 
embargo, a trade embargo (excepting food and medicine), a ban on access 
to financial institutions by the contending parties, if possible with 
China's and Sudan' support placing further oil proceeds for the 
government in an escrow account, and the beginning of investigation and 
adjudication of war crimes by the proposed Hybrid Court. Neighboring 
African states would have to agree to enforce the arms and trade bans 
and refrain from any armed or financial support to either of the 
parties. A joint UN/AU mediation would then be charged with 
reinstituting a stronger peace plan.
    This is a tall order. It would require considerable high level and 
intensive diplomacy. But only by this level and degree of international 
unity could this war be brought under control should the current peace 
plan fail.
    Thank you, Senators. I am happy to answer your questions.

    STATEMENT OF JOHN PRENDERGAST, ENOUGH PROJECT, FOUNDING 
                    DIRECTOR, WASHINGTON, DC

    Mr. Prendergast. Mr. Chairman, Senator Cardin, Senator 
Kaine, thank you guys for your leadership. I am honored to be 
here with my two friends, and I want to associate myself with 
much of what they said.
    This war has been hell for the people of South Sudan, but 
here is a twist that we do not often hear about. It has also 
been very lucrative for the leaders who have plunged this 
country back into war. ``War crimes pay'' has been the message. 
Therein lies the crux of the problem, I believe, with U.S. and 
broader international efforts to support peace in South Sudan 
and other war-torn states in Africa. We are not frontally 
addressing the violent kleptocracies that are at the core of 
wars and extreme violence in South Sudan, Sudan, Congo, the 
Central African Republic, Somalia, Burundi, the list goes on.
    South Sudan and other countries that are listed above are 
not simply failed states as they are commonly referred to. They 
are actually hijacked states.
    In South Sudan, competing factions of the ruling party, who 
have been competing for decades so it is no surprise, they have 
used state institutions and deadly force to finance and fortify 
networks that are aimed primarily at self-enrichment and brutal 
repression of dissent.
    South Sudan leaders never seriously invested in building 
credible state institutions, despite the hundreds of millions 
of dollars that you were asking about earlier that the United 
States invested in that state-building exercise, because they 
wanted to ensure the absence of accountability. As Sarah Chayes 
has observed in other settings, probably in this chair--
Afghanistan is most prominently where her work is best known--
corruption is not an anomaly; it is the foundation of the 
intended system.
    The missing ingredient, I believe, and this is a critical 
point for the Senate Foreign Relations Committee, the missing 
agreement ingredient in U.S. policy toward South Sudan and many 
of these other war-torn states that we worry about is financial 
and economic leverage.
    The surest route to building leverage for the United States 
to have a bigger influence on peace and human rights in these 
African countries is by hitting the leaders of rival 
kleptocratic factions where it hurts the most--in their 
wallets. A hard target transnational search is required for the 
assets that have been stolen from South Sudan, from the people 
of South Sudan by their leaders over the past decade, with the 
aim of freezing and seizing and then returning the proceeds of 
corruption to the South Sudanese people, and by creating real 
consequences for those who have robbed the country blind and 
plunged it back to war.
    You want to get the attention of the leaders pursuing power 
in South Sudan, go after their stolen assets. That, Mr. 
Chairman, is where I believe the Senate Foreign Relations 
Committee can make the biggest difference.
    So I would like now to turn with my little time to five 
specific financial and legal mechanisms that the U.S. can 
pursue now to counter these violent kleptocracies fueling and 
profiting from wars like that in South Sudan. These authorities 
have been strengthened in the aftermath of 9/11 globally, but 
they are rarely used for human rights and peace. They are 
rarely used for the second-tier conflicts that most people give 
lip service to and then focus the tools on primary objectives 
like Russia, rightly, Ukraine, North Korea, and Iraq.
    The first recommendation I make is, in order for targeted 
sanctions, which is our basic tool, to actually have an impact, 
they have to be much more robustly imposed and much more 
systematically enforced than what is occurring presently for 
South Sudan and any of the conflicts that I have listed. We 
should be sanctioning a much wider group of perpetrators and 
their enablers in the international systems--banks and other 
entities--and enforcing those sanctions wherever we can.
    We do that by building and leading--and you guys have 
primarily focused on this point of leadership--leading a broad 
alliance of countries to join us in these kinds of efforts, 
because we know, and you talked to Ambassador Power yesterday, 
you know the Security Council faces an incredible logjam 
because of Russian and Angolan and other countries' 
intransigence in the use of tools of financial leverage.
    So we need to lead it. We need to get the countries where 
all these assets are parked and work with them to go after this 
money.
    The second recommendation I would put forward is for the 
full Senate in 2016 to pass the Global Magnitsky Human Rights 
Accountability Act, S. 284, which has been introduced by 
Ranking Member Cardin and a number of other members of the 
Senate Foreign Relations Committee to bolster the U.S. 
Government's infrastructure to take action against those who 
commit human rights abuses or are complicit in major acts of 
corruption. That would provide a powerful tool of leverage for 
the United States.
    The third recommendation I would put forward is identifying 
and countering sanctions busters. That should be a critical 
component, going up the value chain where money is really made 
in the international system off the human misery in these 
African conflicts.
    I have a lot more in the testimony. I would be glad to talk 
to further about that.
    The fourth recommendation I put forward is that sanctions 
are just one lever that can be used to apply financial pressure 
and build leverage. We also need to use the anti-money-
laundering measures of the U.S. Treasury Department's Financial 
Crimes Enforcement Network, FinCEN, which has broad authority 
over under Section 311 of the PATRIOT Act.
    We can require domestic financial institutions and agencies 
to implement specific special measures against designated 
primary money laundering concerns like that going on in South 
Sudan. You would be shocked at how much money these leaders are 
making off of money laundering today in South Sudan. We would 
like to see FinCEN issue an advisory to all U.S. financial 
institutions regarding the risk of money laundering activity in 
South Sudan.
    My fifth and final recommendation has to do with mechanisms 
beyond the Treasury Department that the U.S. can bring to bear 
right now on South Sudan. The U.S. Government can take steps to 
ensure that the South Sudan leaders' ill-gotten gains do not 
wind up in the United States or pass through the U.S. financial 
system. Remember, money transfers represent perhaps up to 60 
percent, 70 percent of the movement of money and the world, so 
there is a great vulnerability there for the U.S. to act.
    The U.S. Department of Justice's Kleptocracy Asset Recovery 
Initiative is empowered to identify and seize the proceeds of 
overseas corruption in cases that involve a U.S. nexus. It just 
has to be investigated, found, and then acted upon. The 
kleptocracy initiative I think should actively pursue cases 
involving the misappropriation of South Sudan assets, 
especially given Senator Cardin's point about how much we have 
invested in South Sudan since its independence.
    South Sudanese officials who loot state coffers--and that 
includes the rebels who used to be part of the South Sudanese 
Government and the current Government--should be under no 
illusion that they can park their ill-gotten gains in the 
United States or use the U.S. financial system to execute their 
heists.
    As a closing note, we in the nonprofit world are trying to 
do our part by recently launching an initiative we are calling 
The Sentry. We have hired financial forensic investigators to 
follow the money and prepare substantial dossiers for action by 
the Treasury Department and other governments with jurisdiction 
over some of these stolen assets.
    We will do our best in 2016 to shine a spotlight on these 
kleptocratic networks that are profiting from human misery in 
South Sudan and other countries, and make them pay for their 
crimes.
    Thank you very much.
    [The prepared statement of Mr. Prendergast follows:]

                 Prepared Statement of John Prendergast

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, I'm grateful for the opportunity to testify about South 
Sudan at such a critical fork in the road for the youngest nation in 
the world. Working with the executive branch and through your actions, 
the Senate Foreign Relations Committee has the opportunity to help this 
new country change course and make progress on implementing the hard-
won peace agreement that was signed back in August. If these efforts 
fail, South Sudan will likely be plunged back into a full-scale civil 
war that surely would be--based on past experience--one of the world's 
deadliest.
    This war has been hell for the people of South Sudan, but it has 
also been very lucrative for their leaders. ``War crimes pay'' has been 
the message. And therein lies the crux of the problem with U.S. and 
broader international efforts to support peace in South Sudan and other 
war torn states in Africa: we are not frontally addressing the violent 
kleptocracies that are at the core of wars and extreme violence in 
South Sudan, Sudan, Congo, the Central African Republic, Somalia, 
Burundi, etc.
    South Sudan and the other countries listed above are not simply 
failed states, as they are commonly referred to. They are hijacked 
states. In South Sudan, competing factions of the ruling party have 
used state institutions and deadly force to finance and fortify 
networks aimed at self-enrichment and brutal repression of dissent. 
South Sudan's leaders never seriously invested in building credible 
state institutions because they wanted to ensure the absence of 
accountability. Rather than protecting their populations, these 
competing factions used elements of the military and police to protect 
the spoils of their corrupt networks and their exploitation of the 
countries' rich natural resources. Then the two factions turned on each 
other due to long-running financial and political rivalries in the zero 
sum game that is South Sudan's politics, and they mobilized communities 
along ethnic lines, with predictably horrific consequences.
    As Sarah Chayes has observed in other settings, Afghanistan most 
prominently, corruption is not an anomaly; it is the foundation of the 
intended system.
    The hijacking of the state by corrupt leaders willing to use mass 
violence and harsh repression to maintain or gain power is the deepest 
root cause of South Sudan's war, as it is in a number of other endemic 
conflicts in Africa. But the outlook is not hopeless. The African 
states that have begun to overcome this cycle are beginning to thrive, 
offering rays of hope for the future of those still caught in conflict. 
And because these violent kleplocracies internationalize the spoils of 
their theft and use of deadly force, there are vulnerabilities that the 
U.S. is in a unique position to address in support of peace and human 
rights.
    Our conventional diplomacy has limited value and impact because it 
has not sought to alter the calculations of those fueling and profiting 
from war. Therefore, dismantling the financial networks that enable and 
benefit from mass atrocities and creating a cost for profiting from 
conflict will allow other essential tools--such as diplomacy, 
peacekeeping, state building assistance, and accountability efforts--a 
better chance of success.
    We must focus on making war more costly than peace. The incentives 
for financially benefiting from violence need to be fundamentally 
altered through a comprehensive strategy of financial pressure that 
provides the necessary leverage to drive the parties to compromise. As 
long as war is profitable for certain leaders and their enablers, it 
will be that much harder to end.
    The missing ingredient in U.S. policy toward South Sudan, and many 
other war-torn African states, is financial/economic leverage. Greed is 
driving the calculations of South Sudan's government and rebel leaders. 
Politics in South Sudan has become a winner take all game, so huge 
patronage and security networks financed by acute corruption can only 
be maintained by keeping other factions out of government. The national 
interest is sacrificed for more venal self-interests as a matter of 
policy. And given the lack of any accountability for such a system, it 
should not be surprising that it continues.
    When there are no limits to the hijacking of state resources or 
consequences for the use of violence to maintain power, instability and 
civil war are never far off. It is in the arena of global financial 
investigations into the proceeds of corruption used to fund mass 
atrocities that the U.S. has the most potential leverage. The U.S. and 
other governments working genuinely for peace in South Sudan (and other 
war-torn African states) can only enhance their influence in supporting 
peace and human rights if a concerted effort is made to expand economic 
pressure. And the surest route to building this kind of leverage is by 
hitting the leaders of the rival kleptocratic factions where it hurts 
the most: their wallets. A hard target transnational search is required 
for the assets that have been stolen from South Sudan by its leaders 
over the last decade, aiming to freeze, seize, and return the proceeds 
of corruption to the South Sudanese people and create a real 
consequence for those that have robbed the country blind and plunged it 
back into war.
    That, Mr. Chairman, is where the Senate Foreign Relations Committee 
can help the most, and where I believe your efforts should be focused: 
ensuring that the U.S. government and its allies deploy the under-
utilized tools available to build financial leverage in support of 
peace and human rights in South Sudan, Sudan, Congo, and other 
violence-wracked states in Africa. U.S. financial leverage remains 
strong when it is built and utilized. That is where we can make a 
difference.
    More specifically, to build real leverage, we must focus on three 
key elements:

  <diamond> Creating consequences for those who undermine the 
        agreement's implementation or the spoilers who loot state 
        assets;

  <diamond> Supporting the peace agreement and the institutions it has 
        established in South Sudan, especially those dealing with 
        financial transparency and accountability; and
  <diamond> Enhancing the capacity of civil society to do the same, 
        holding their own leaders to account and countering extremist 
        discourse.

    Later in my testimony I will outline several specific measures that 
the United States government should pursue now in order to build needed 
leverage, but first I want to focus the Committee on the key aspect of 
how South Sudan descended into this conflagration. A proper diagnosis 
will yield more effective policy prescriptions.
Violent kleptocracy in South Sudan: a hijacked state
    South Sudan is what the Enough Project defines as a ``violent 
kleptocracy.'' It is a system in which the country's wealth has been 
captured and controlled almost exclusively by a small group of powerful 
elites within the government and the patronage networks and private 
sector operators connected to them. Ruling elites in Juba have relied 
on state institutions, especially the state security apparatus, to 
enrich and protect themselves at the expense of the rest of South 
Sudan's population. And they use extreme violence to enforce the 
kleptocratic system at the core of South Sudan's tragedy.
    Although there are many causes, we see a corrosive climate of 
corruption and elite competition for state resources at the heart of 
South Sudan's current crisis. The South Sudanese Minister of Justice 
himself recently acknowledged that the pattern of corruption in his 
ministry and elsewhere is so pervasive that ``everyone is stealing.'' 
The word ``corruption'' is mentioned no less than 34 times in a recent 
report by the African Union Commission of Inquiry on the crisis in 
South Sudan. One quote from the report, in particular, illustrates the 
centrality of corruption in the current crisis:

          It was clear from the various consultations of the Commission 
        that the absence of equitable resource allocation and 
        consequent marginalization of the various groups in South Sudan 
        was a simmering source of resentment and disappointment 
        underlying the conflagration that ensued, albeit the implosion 
        of the conflict was brought about by the political struggle by 
        the two main players. The struggle for political power and 
        control of natural resources revenue, corruption and nepotism 
        appear to be the key factors underlining the break out of the 
        crisis that ravaged the entire country.

    In South Sudan, the link between corruption and conflict could 
hardly be more pronounced. This link has been facilitated by the 
predominance of weak and under-developed institutions that allow for 
minimal or non-existent checks and balances on the excesses of 
government officials. For example, the country's systems for revenue 
collection, public expenditure, and currency management provide a 
select few individuals with privileged access to state resources. 
Senior government officials have been able to capture and divert 
national revenues and manipulate the official and black market exchange 
rates to turn huge profits on the dollar for themselves at the public's 
expense.
    To protect their ill-gotten wealth, government officials spent a 
large portion of the national budget on security at the expense of 
infrastructure development, health, and education. State assets that 
are not looted outright are often used to fund elaborate patronage 
networks and to retain outsized security forces and the militias that 
are narrowly focused on protecting the elite within the government, 
often along ethnic lines, thus reinforcing these divisions between 
communities. And those who wield power rarely hesitate to use violence 
and commit the most horrific of human rights abuses to counter anyone 
who challenges their supremacy or seeks to expose their ruse.
    These corrosive political and economic dynamics sowed the seeds for 
South Sudan's descent into violence in December 2013.
    The violent kleptocracy that has emerged in South Sudan is also the 
product of long-standing exploitative economic practices with their 
origins in the 1983-2005 civil war in Sudan. Many of the existing 
patronage networks in South Sudan have their origin during that war. 
Patronage-based systems, however, can also be deeply unstable. In the 
case of South Sudan, rival cliques within the system started competing 
for control over the spoils of state power, leading to an increase in 
violence and state repression, and eventual civil war.
    This is exactly what happened in late 2013. A political dispute 
between President Salva Kiir and Vice President Riek Machar may have 
been the proximate cause of the current crisis, but elite competition 
between rival factions over access to state resources was the major 
underlying catalyst of the conflict.
    As the Enough Project details in a report to be released next week, 
the financing of the conflict is representative of the patronage 
networks and kleptocratic system that prop up those in power and 
sustain continuous violence. The government has been able to fund the 
conflict primarily with oil money and currency speculation schemes that 
leverage the difference between the official and black market exchange 
rates. It has also received loans on future oil production, and from 
doing business with ``war profiteers''--private sector investors 
interested in gaining access to South Sudan's natural resource wealth 
once the conflict has ended.
    For its part, the opposition funds the war with the personal wealth 
of key individuals in its ranks, through diaspora remittances, and from 
high-risk investors. Several opposition delegations have toured the 
United States, Canada, and Australia seeking financial support from 
members of the South Sudanese diaspora. These sources of funding are 
vital to sustaining the opposition because they lack access to the 
state's financial resources and do not receive regular salaries.
    In retrospect, South Sudan's slide into a state of violent 
kleptocracy, corruption, and conflict seems like a predictable path. 
But that doesn't mean nothing was done to prevent these dynamics from 
taking hold. The legal and institutional frameworks to manage the 
petroleum industry and combat corruption in South Sudan actually exceed 
international standards in some cases, but implementation and 
enforcement have been non-existent. The problem is that laws are 
ignored and institutions are disempowered or marginalized because they 
are not in the interest of those in power.
    The bottom line is that competing South Sudanese factions of the 
ruling party have been willing to loot state assets and murder rivals 
and civilians alike because they believe there are no consequences. To 
change the equation, consequences must be created.
Ending impunity and creating consequences in South Sudan
    Ultimately, ending South Sudan's crisis will require creating 
accountability for economic and atrocity crimes. This is where the 
United States is in a unique position to both support the 
implementation of the peace agreement and pursue global financial 
measures to curtail conflict financing in South Sudan. My fellow 
panelists discuss the importance of U.S. support for accountability for 
war crimes through support to the proposed Hybrid Court, which I 
strongly support. I'd like to focus on five financial and legal 
mechanisms that the United States can pursue to counter the kleptocracy 
at the core of the war and enhance economic accountability in South 
Sudan:

  <diamond> Enhancing the types of criteria used by the U.S Treasury 
        Department to impose sanctions;
  <diamond> Passing the Global Magnitsky Act;
  <diamond> Ensuring that sanctions are enforced by Treasury once 
        imposed;
  <diamond> Directing the Financial Crimes Enforcement Network (FinCEN) 
        to gather information and address potential money laundering 
        activities; and
  <diamond> Building cases at the Department of Justice-led Kleptocracy 
        Asset Recovery Initiative to investigate and prosecute cases 
        involving the U.S. financial system.

    For many of the initiatives laid out below, the U.S. can act 
unilaterally as well as in partnership with the UK, EU, and others that 
have similar concerns and well-developed financial, legal, and 
regulatory frameworks to target assets, firms, and individuals under 
their jurisdictions. The impact would be greatest if the U.S. builds a 
coalition of countries willing to work with us in these efforts, 
particularly countries where South Sudan's leaders have stored their 
assets or housed their families. Deadlocks in the U.N. Security Council 
should not be a reason to not pursue multilateral leverage-building 
actions.
    First, in order for targeted sanctions to actually have an impact, 
they must be more robustly imposed and systematically enforced. Moving 
forward, the U.S Treasury Department's Office of Foreign Assets Control 
(OFAC) should focus its investigations on politically and financially 
exposed individuals who threaten the implementation of the peace 
agreement and overall peace and security in South Sudan. This will 
likely require OFAC to issue intelligence community collection 
requirements to gather information on possible targets and their 
networks in South Sudan, the region, and overseas.
    Additionally within this category, there are two ways that the 
sanctions authorities on South Sudan could be improved significantly, 
and members of Congress should encourage the Obama administration to 
pursue these steps. Facilitating public corruption in South Sudan 
should be grounds for designation under sanctions. At least five U.S. 
sanctions regimes (those for Belarus, Burma, Syria, Venezuela, and 
Zimbabwe) have included language that explicitly allows Treasury to 
place sanctions on anyone who facilitates public corruption. Sanctions 
can also be used to address attempts to muzzle civil society and the 
press. Civil society actors and journalists must be able to carry out 
their essential tasks in supporting implementation of the peace 
agreement and serving as watchdogs for the public trust against abuses 
perpetrated by state actors. The Executive Order recently issued on 
Burundi and the existing sanctions regime on Venezuela serve as a 
blueprint for countering public corruption and enshrining protections 
for civil society actors and journalists.
    Second, in addition to use of the existing designation criterion 
within the South Sudan Executive Order related to the commission of the 
grave human rights abuses outlined in the African Union Commission of 
Inquiry report, Congress should pass the Global Magnitsky Human Rights 
Accountability Act, S. 284, introduced in the Senate by Ranking Member 
Cardin, to bolster the U.S. government's infrastructure to take action 
against those who commit human rights abuses or are complicit in acts 
corruption.
    Third, we also should not forget about ``sanctions-busters'' and 
international facilitators that enable corruption. There is no shortage 
of unscrupulous illicit entrepreneurs, or ``war profiteers,'' willing 
to help isolated regimes circumvent sanctions and remain financially 
afloat. Therefore, identifying and countering these sanctions busters 
must be made a crucial component of enforcement efforts, regardless of 
the original authorities used to impose sanctions. Current sanctions 
authorities already allow the Treasury Department to place sanctions on 
anyone found ``to have materially assisted, sponsored, or provided 
financial, material, logistical, or technological support for, or goods 
or services in support of any of the [prohibited] activities--or of any 
person whose property and interests in property are blocked.''
    This provision cannot be an idle threat. Enforcement resources at 
OFAC should also be directed at those named as Specially Designated 
Nationals to ensure that they are not able to continue conducting 
business in ways that should be impacted by sanctions, but in some 
cases may not be because of insufficient resources for enforcement at 
Treasury, or a lack of cooperation from South Sudan's neighbors. 
Congress should supplement Treasury's resources to ensure OFAC has the 
resources it needs to enforce sanctions and monitor those designated, 
given the many priorities the agency is balancing.
    Fourth, sanctions are not the only lever that can be used to apply 
financial pressure. Anti-money laundering measures should also be part 
of the equation. The U.S. Treasury Department's Financial Crimes 
Enforcement Network (FinCEN) has broad authority under section 311 of 
the Patriot Act to require domestic financial institutions and agencies 
to implement specific ``special measures'' against a designated primary 
money laundering concern. We would like to see FinCEN issue an advisory 
to all U.S. financial institutions regarding the risk of possible money 
laundering activity in South Sudan.
    FinCEN's issuing such an advisory would trigger U.S. banking and 
financial institutions to provide information about money laundering 
activity to the Treasury Department. FinCEN could, in turn, use this 
information to determine if specific banks, classes of transactions or 
specific accounts should be designated as primary money laundering 
concerns. These steps could place significant pressure on the networks 
relied upon by corrupt officials, opposition leaders, and their 
enablers. Should FinCEN identify a primary money laundering concern, 
its special measures under section 311 could require specific types of 
information collection and due diligence or even prohibit U.S. 
financial institutions from maintaining correspondent accounts 
connected to the primary money laundering concern.
    Finally, there are also mechanisms beyond the Treasury Department 
that the U.S. can bring to bear in South Sudan. For example, the U.S. 
government can also take steps to ensure that South Sudanese leaders' 
ill-gotten gains do not wind up in the United States or pass through 
the U.S. financial system. The U.S. Department of Justice's Kleptocracy 
Asset Recovery Initiative is empowered to identify and seize the 
proceeds of overseas corruption in cases that involve a ``U.S. nexus.'' 
When appropriate, the Justice Department's Kleptocracy Initiative 
should actively pursue cases involving the misappropriation of South 
Sudanese assets. South Sudanese officials who loot state coffers should 
be under no illusion that they can park their ill-gotten gains in the 
United States or use the U.S. financial system to execute their heist.
Supporting South Sudan's peace deal
    The peace agreement signed in August has ushered in some hope that 
South Sudan can move beyond the violence that has plagued the country 
for the past two years. The agreement represents an important milestone 
in efforts to end the conflict, but as long as South Sudan's 
kleptocratic system remains intact, the peace agreement will remain 
imperiled.
    To be sure, the peace agreement signed in August contains 
provisions that, in theory, take aim at corruption and bolster 
accountability. For example, it stipulates the creation or 
reconstitution of several important domestic institutions with an 
anticorruption mandate, including the Anti-Corruption Commission, the 
Fiscal, Financial Allocation and Monitoring Commission, and the 
National Audit Chamber. These organizations must be effectively 
empowered to fulfill their mandate, just as the Hybrid Court must be 
fully empowered to address human rights violations.
    The peace agreement also mandates the creation of the Joint 
Monitoring and Evaluation Commission (JMEC), a body of a few dozen 
representatives from regional and international actors that is supposed 
to monitor the implementation of the agreement. Empowering this entity 
to expose corruption and the misappropriation of state assets is a 
crucial priority for ending the culture of impunity among South Sudan's 
leaders. Donors must provide JMEC with the necessary resources and 
technical expertise to fulfill its mandate. These experts must include 
specialists in forensic financial accounting and oil industry 
transparency.
    To enhance effectiveness, donors should also provide increased 
support to South Sudanese civil society to hold their leaders to 
account. Supporting the internal demands for peace, transparency, and 
human rights is an essential bottom-up element of a comprehensive 
strategy for sustainable change.
    Moving forward in South Sudan, we need to beware of cosmetic 
reform. Fully supporting sustainable peace will require integrating 
anti-corruption and accountability initiatives into virtually every 
aspect of our engagement in South Sudan--and leaning on our partners to 
do the same. In other words, accountability and anti-corruption 
initiatives must be woven into everything from security sector reform 
to foreign assistance. It also means not necessarily accepting anti-
corruption initiatives at face value. South Sudanese officials 
shouldn't be able to reap the rewards of compliance by simply paying 
lip service to reforms but rather should ensure that there is clear 
reporting on what actions are taken and what remains before further 
steps in assistance programs are taken.
Conclusion
    Mr. Chairman, the Senate Foreign Relations Committee can make a 
difference in fighting kleptocracy in South Sudan by ensuring 
sufficient resources for agencies like OFAC and FinCEN and then holding 
them accountable for results on South Sudan, by passing legislation 
like the Global Magnitsky Human Rights Accountability Act, by 
strengthening language on sanctions to target the looting of state 
coffers and the repression of civil society, and by ensuring adequate 
resources so that the peace agreement can be enforced.
    South Sudan has devolved into a violent kleptocracy in which we 
have seen atrocity after atrocity committed while the state's coffers 
are looted. We have a chance now to help South Sudan change course. The 
process of building effective, accountable institutions in South Sudan 
that are inherently different from what we have today will undoubtedly 
require significant resources, sustained engagement, and time. But 
unless economic and atrocity crimes at the root of the system are 
addressed, South Sudan will remain at risk of a return to deadly 
conflict. To prevent this, we urge you to ensure that the tools at the 
disposal of the U.S. government are deployed to the fullest extent in 
support of peace and accountability in South Sudan.
    The Chairman. Thank you, sir.
    Mr. Akwei?

   STATEMENT OF ADOTEI AKWEI, MANAGING DIRECTOR, GOVERNMENT 
     RELATIONS, AMNESTY INTERNATIONAL USA, WASHINGTON, D.C.

    Mr. Akwei. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to present our analysis and our 
findings. We have prepared written testimony, which I hope will 
be entered into the record.
    Mr. Chairman, members of the committee, it is hard to find 
words to do justice to the tragedy and the depth of suffering 
that the people of South Sudan are going through. When one adds 
on the human rights abuses that have impacted these people 
during the civil war in Sudan, which dates back to 1955 with a 
brief respite between the 1972 and 1983, the current 
conflagration and its primary drivers is even more appalling.
    In all of that time, the international community has 
responded, and I would like to acknowledge the incredible 
leadership and resources that the United States has brought to 
the crisis. But often, we have done too little too late on 
various aspects of the conflict.
    In the international community, we have consistently failed 
to uphold and impose accountability on the actors' link to 
abuses and the officials of the new government when they assume 
power after gaining independence. The people of South Sudan are 
reaping the grim consequences of that failure. These include 
war crimes of extrajudicial execution, mass killings, rape, the 
destruction of livelihoods, the destruction of homes, the 
humanitarian crisis, which has created over 2 million displaced 
persons, and of course the food insecurity that was referred to 
earlier in the first panel.
    In addition to that, one of the more disturbing trends has 
been Sudan's initation of government repression and the closing 
of political space. Freedom of expression is heavily curtailed 
in South Sudan and the situation is worsening. Authorities, 
especially the National Security Services (NSS), routinely 
harass and intimidate human rights defenders and journalists. 
The NSS arbitrarily detains journalists and orders some to 
leave the country. NSS officers have shut down newspapers, 
seized copies of papers, and prohibited the publication of 
articles.
    The weakness of the criminal justice system has resulted in 
rampant human rights abuses, such as pretrial detention, 
failure to guarantee due process and fair trials, and arbitrary 
arrests and detention.
    State security forces are only contributing to the 
overwhelming culture of impunity and fear through their 
inability to hold perpetrators of human rights abuses 
accountable and arbitrary arrests and detention of journalists 
and human rights offenders. Further, the capacity of the police 
and the judiciary to enforce the laws has been decimated due to 
the militarization and defection of many police officers.
    In addition to this, parliament, as you know, passed a 
national security bill. While President Kiir refused to sign it 
into law, the possibility of the bill becoming law remains and 
continues to be a threat and an act of intimidation. This bill 
would give the National Security Services broad powers to 
arrest, to detain without appropriate oversight mechanisms 
against such abuses, and continues to be a major impediment 
toward any kind of accountability, whether it be on the issues 
of corruption that John has referred to or more civil and 
political types of abuses.
    Until persons linked to human rights violations are brought 
to justice, there will be no incentive to change behavior and 
no progress toward improving the respect and protection of 
human rights. We in the international community will be stuck 
in the same fire drill of trying to stop violence and in the 
process postpone setting up effective mechanisms of governance 
and accountability.
    It is well past time for the United States, in concert with 
the A.U., IGAD, and the United Nations, to make abusive actions 
have consequences and begin to break the cycle of impunity in 
Sudan. The failure of leadership, which this hearing 
appropriately uses as its focus, that created the enabling 
conditions for the current crisis occurred in the country as 
well as outside of it. Until this is corrected, all of us share 
the blame of the continued suffering.
    We have a number of recommendations, some of which have 
already been noted. We would continue to call for U.S. 
leadership in trying to push for a comprehensive arms embargo. 
We support an imposition of asset freezes and travel bans more 
robustly against individuals and entities who have engaged in 
violations of international humanitarian law and abuses of 
international human rights law.
    We also feel that pressure must be put on the U.N. Security 
Council to act on the paper outlining options for 
accountability, for example, the hybrid court that you have 
referred to; the peace and justice and reconciliation 
initiatives; and, most importantly, the news that the United 
States is already beginning to collect evidence is probably one 
of the most important steps forward, because as soon as that 
evidence is lost, it becomes incredibly difficult to impose and 
enforce accountability later down the line.
    Mr. Chairman, members of the committee, we really are 
facing, as John said, not just a failed state, but a hijacked 
state. It is a tragedy that it has happened so quickly. We must 
all redouble our efforts to try to change this.
    Thank you.
    [The prepared statement of Mr. Akwei follows:]

                   Prepared Statement of Adotei Akwei

Introduction
    On behalf of Amnesty International USA we would like to thank the 
Members of the Senate Foreign Relations Committee for the opportunity 
to present our analysis and recommendations on the ongoing crisis in 
South Sudan.
Amnesty International's work in South Sudan
    Amnesty International is the world's largest human rights 
organization, with more than 7 million supporters in over 150 nations 
and territories. There are 80 country chapters of Amnesty 
International. Here in the United States we have nearly 500,000 
supporters whose dedication to human rights has impacted both policy 
and practice around the world.
    Amnesty International has been seeking to protect and improve human 
rights in Sudan since its formation in 1961 and on South Sudan since it 
seceded from Sudan and gained its independence in 2011. AI has issued 
reports, held meetings with government representatives for South Sudan, 
and have also submitted reports to various U.N. and AU bodies.
Background to the conflict in South Sudan
    Since the outbreak of conflict in mid-December 2013 between the 
government of South Sudan led by President Salva Kiir and opposition 
forces led by former Vice President Riek Machar, neither side has 
showed any respect for international humanitarian law nor for the lives 
and human rights of civilians. All parties to the conflict attacked 
civilians on a massive scale, destroying and looting civilian property, 
raping and abducting women and girls, obstructing humanitarian 
assistance, and recruiting children into their armed forces. These acts 
contributed to tens of thousands of deaths, physical injuries, the 
displacement of over 2 million people, a total loss of livelihoods, 
destruction of property, and high levels of food insecurity and 
malnutrition. The U.N. High Commissioner reports that around 1.6 
million people are internally displaced in the country, 200,000 of whom 
shelter in six UNMISS Protection of Civilian (PoC) sites and around 
650,000 people have fled to neighbouring countries as refugees.\1\ The 
rest are sheltering in swamps and forests, while others have been 
integrated by host communities in areas with little or no conflict.
---------------------------------------------------------------------------
    \1\  UNHCR Global Appeal 2015 Update. OCHA Humanitarian Bulletin, 
December 2015, http://reliefweb.int/sites/reliefweb.int/files/
resources/OCHA--SouthSudan--humanitarian--bulletin--1Dec2015.pdf
---------------------------------------------------------------------------
    Such abuses of international human rights and humanitarian law have 
had severe repercussions on the mental health of thousands of South 
Sudanese people. The outward signs of trauma and loss are accompanied 
by often invisible psychological wounds and scars of conflict.
    Despite the signing of a peace agreement in August 2015 and 
subsequent ceasefire declarations by both sides, violence has continued 
in Unity and Upper Nile states. Alarmingly, the conflict has encroached 
into Western and Eastern Equatoria states with clashes between the 
Sudan People's Liberation Movement and armed groups leading to 
displacement, loss of lives and destruction of property and 
contributing to egregious human rights abuses, the displacement of 
millions of people, the destruction of property and livelihoods and 
widespread food insecurity.
    The Peace Agreement set out a large number of commitments, 
including constitutional, governance and security sector reforms. The 
peace agreement also provides for three mechanisms related to 
transitional justice--a truth and reconciliation commission, a hybrid 
court and a compensation and reparations authority. Implementation of 
the peace agreement has been slow at best, with most milestones to date 
having been missed, and with armed conflict and violence in the country 
continuing and in some areas, such as Western Equatoria, growing worse. 
South Sudan. To our knowledge, no progress has yet been made on the 
transitional justice mechanisms.
The international response
    Despite international and regional efforts to establish peace, 
conflict and human rights violations continue unabated. On December 24, 
2013 the U.N. Security Council approved an increase of the United 
Mission in South Sudan (UNMISS) to 12,500 troops and increased the 
mission's police force to a maximum of 1,323 personnel. The UNMISS 
mandate was revised in May 2014 to focus on protecting civilians, 
monitoring and investigating human rights, creating conditions that 
facilitate the delivery of humanitarian assistance, and supporting the 
efforts to cease hostilities. The U.N. Security Council has met to 
discuss changes to the mandate of the 12,500-strong United Nations 
peacekeeping mission to support early steps in the peace accord such as 
ceasefire monitoring which included U.N. Secretary General Ban Ki-
moon's request for 500 extra troops and 600 police, along with 
helicopters and drones to help the mission enforce the peace deal. 
(NMG) \2\
---------------------------------------------------------------------------
    \2\  South Sudan Government Directs Civilians to Leave UN Base, The 
Citizen, December 4, 2015.
---------------------------------------------------------------------------
Key human rights concerns
    On October 27 2015 the long delayed report of the African Union 
Commission of Inquiry (COI) on South Sudan became public and reiterated 
the appalling human rights violations and abuses perpetrated against 
the people of South Sudan . The report finds unequivocally that both 
sides to the conflict including Salva Kiir's Government forces and the 
Opposition forces led by Riek Machar--have committed war crimes. This 
report only covered the period of the conflict until mid-2014, and to 
our knowledge, there has been no continuing investigation or follow-up.
    The AU COI report documents people being burnt in places of worship 
and hospitals, mass burials, women of all ages, elderly and young, 
being brutally gang raped, and left unconscious and bleeding. People 
were not ``simply shot, they were in some instance subjected to 
beatings before being compelled to jump into fire''. The Commission 
heard of reports of some captured people being forced to eat human 
flesh or forced to drink human blood.
    Human rights violations included extrajudicial killings (murder), 
sexual and gender based violence (SGBV), violations of freedom of 
expression and of the media, and discrimination entailed in targeting 
of individuals on grounds of ethnic origin.
    Other crimes, which could constitute either war crimes or crimes 
against humanity are killings/murder, rape and sexual violence (SGBV), 
forced displacement/removal of populations, abducted children 
associated with conflict used in servitude and beaten, looting, pillage 
and destruction of property, enforced disappearances by state actors, 
torture, targeting of humanitarian workers and property.\3\ The report 
tracks closely with concerns expressed by international human rights 
organizations, like Amnesty International as well as humanitarian 
organizations.
---------------------------------------------------------------------------
    \3\ Final Report of the Africa Union Commission of Inquiry on South 
Sudan, African Commission of Inquiry on South Sudan, Page 117, October 
15, 2015
---------------------------------------------------------------------------
    2015 has seen an intensification of these kinds of abuses rather 
than a decrease. The Office of the High Commission on Human Rights 
(OHCHR), UNMISS, Amnesty International and other organizations reported 
that between 29 April and 12 May this year at least 28 towns and 
villages in the Unity State have been attacked. These attacks by 
government forces on civilians and the resulting civilian displacement 
reflect the conflict driven human rights violations of early 2014. In 
Bentiu, the murder, abduction and sexual assaults on civilians not 
continue, but are escalating at an alarming rate.
    On 30 June UNMISS issued a report with findings of widespread 
violations against civilians marked by a new brutality and intensity 
committed by government forces in southern parts of Bentiu. Moreover, 
UNICEF estimates that approximately 16,000 children have been recruited 
by all parties to serve in armed forces and groups.
    Those who fled violence in Rubkona, Guit, Koch and Leer counties 
describe how government forces, mostly from the Bul section of the Nuer 
ethnic group, have been attacking their villages with axes, machetes 
and guns. Armed groups have also participated in the mass killing of 
civilians.
    On 25 April, an armed group with machine guns, large guns, and RPGs 
attacked the Atar village in Piji County and shot anyone they saw. 
Those who survived these attacks sought refuge at U.N. protection of 
civilian sites. Intense fighting between the Sudan People's Liberation 
Movement/Army-In Opposition, government forces, allied youth and 
militia groups have caused thousands to flee to a United Nations base 
in Bentiu.
    Government soldiers have targeted and killed people based on 
ethnicity and assumed political affiliation. Parties to the conflict 
have attacked hospitals and places of worship where civilians have 
taken refuge/sheltered. Currently the culture of impunity allows these 
abuses to go unchecked. Perpetrators need to be held accountable for 
their actions to deter further atrocities.
Deepening humanitarian crisis
    South Sudan is in dire need of humanitarian assistance due to the 
conflict and as a result of civil war in Sudan that preceded the 
country becoming independent. In October, the U.N., FAO and WFP issued 
a report stating that ``3.9 million people in South Sudan faced severe 
hunger and that tens of thousands were on the brink of famine.'' \4\
---------------------------------------------------------------------------
    \4\ http://www.wfp.org/news/news-release/un-calls-immediate-access-
conflict-affected-areas-prevent-catastrophe-south-sudan
---------------------------------------------------------------------------
    The obstruction of humanitarian assistance by parties to the 
conflict is also a significant roadblock to delivering lifesaving 
assistance. Parties to the conflict have attacked humanitarian workers 
and U.N. bases where an estimated 180,000 people have sought shelter. 
Five humanitarian workers have been killed, two U.N. employees abducted 
and three crew members killed when their UNMISS helicopter was shot 
down. The International Committee of the Red Cross announced the 
withdrawal of staff from Leer County in October and there are reports 
that other agencies have also been weighing whether their staff can 
stay and operations can be continued.\5\
---------------------------------------------------------------------------
    \5\ https://www.icrc.org/en/document/south-sudan-conflict-leer-
looting-icrc-forced-withdrawal.
---------------------------------------------------------------------------
Government repression
    Freedom of expression is heavily curtailed in South Sudan and the 
environment for journalists, human right defenders and civil society to 
do their work without intimidation or fear has greatly declined.
    On October 8, 2014 the Parliament passed a National Security 
Service Bill. However, President Kiir refused to sign it into law and 
sent it back for revisions. Despite this, the bill purportedly came 
into law in March 2015. The  centsAct gives the National Security 
Service (NSS) broad powers to arrest and detain without appropriate 
oversight mechanisms against abuse. Emboldened by this, the NSS have 
arrested, harassed and intimidated journalists, civil society actors 
and perceived political opponents. They have also held temporarily or 
confiscated entirely issues of multiple newspapers.
    Moreover, a draft Non-Governmental Organizations Bill remains a 
possibility after being considered by Parliament. This bill would 
restrict the right to freedom of association by requiring registration, 
prohibiting NGOs from operating without being registered, and 
criminalizing voluntary activities that were carried out without a 
registration certificate.
Need for accountability
    Even though the government of South Sudan did set up inquiries into 
conflict related abuses following the start of the conflict, none of 
these have resulted in independent and effective investigations or 
accountability.
    After the start of the conflict, President Kiir formed a committee 
to investigate human rights abuses. The committee submitted a report to 
the President in December 2014; however, it has yet to be released to 
the public. Furthermore, the SPLA set up two investigation committees 
in December 2013. Approximately 100 individuals were arrested, all of 
whom escaped during a gunfight among soldiers in March 2014. While the 
SPLA has announced that it has rearrested two individuals, no 
information was made public about their identity or the charges against 
them.
    On 2 July, the Human Rights Council adopted a robust resolution on 
South Sudan, which requested the OHCHR to undertake a mission to South 
Sudan and to recommend follow-up actions for the Human Rights Council, 
including the possibility of a mechanism, such as a Special Rapporteur. 
The appointment of a Special Rapporteur to South Sudan will be a 
critical affirmation by the international community toward their 
obligation to ensure accountability and justice for human rights abuses 
and violations of international humanitarian law.
    Perhaps most urgently the international community must act swiftly 
to establish and implement accountability investigations now--without 
waiting for the full establishment of the hybrid court or the 
appointment of a Special Rapporteur. This is critical to help preserve 
evidence and for eventual prosecutions in the future.
Conclusions
    Mr. Chairman, members of the Subcommittee, it is hard to find words 
to do justice to the tragedy and depth of suffering that the people of 
Sudan are going through. When one adds on the human rights abuses that 
have impacted the same people during the civil war in Sudan which dates 
back to 1955 with a brief respite between 1972 and 1983, the current 
conflagration and its primary drivers, is even more offensive. In all 
of this time the international community has often done too little too 
late on various aspects of the conflict but it has consistently failed 
to uphold and impose accountability and the people of South Sudan are 
reaping the grim consequences.
    The title of these hearings is a stark reminder of how badly all of 
us, the leaders of South Sudan's government, and the armed groups, the 
leaders of the African Union and IGAD and the international community, 
have failed the people of South Sudan. While it might have been 
woefully optimistic to expect strong governance and the rule of law to 
immediately manifest itself in South Sudan after nearly 60 years of 
conflict no one appears to have anticipated the conflagration that is 
destroying the country now.
    Until persons linked to human rights violations are brought to 
justice there will be no incentive to change behavior and no progress 
toward improving the respect and protection of human rights and we in 
the international community will be stuck in the same fire drill of 
trying to stop violence and I the process postpone setting up effective 
mechanisms of governance, accountability. It is well past time for the 
United States, in concert with the AU, IGAD and the U.N. to make 
abusive actions have consequences and begin to break the cycle of 
impunity in South Sudan.
                amnesty international's recommendations
    We urge you members of the Senate Africa subcommittee to:


          Support the implementation of the human rights and 
        humanitarian provisions in the Agreement on the Resolution of 
        Conflict in South Sudan;

          Take measures to ensure that all parties to the conflict 
        cease violations of international humanitarian law and 
        violations and abuses of international human rights law;

          Call on the government of South Sudan to adequately protect 
        internally displaced populations, ensure their security, and 
        help create conditions that would allow them return or safely 
        relocate in accordance with their wishes;

          Support efforts to ensure access to justice and reparation 
        programs for victims of human rights violations and abuses 
        including on the establishment and operationalization of a 
        hybrid court;

          Call upon the U.N. Security Council to impose a comprehensive 
        arms embargo against all parties in the conflict on South 
        Sudan; and

          Call upon U.N. Security Council to impose sanctions against 
        individuals and entities who have engaged in violations of 
        international humanitarian law and abuses of international 
        human rights law.


    The Chairman. Thank you, all. We appreciate the work that 
each of you do and the organizations that you represent.
    Ambassador Lyman, just in hearing you talk about the fact 
that two leaders really are not committed to this peace 
agreement, and then, John, listening to you and hearing how 
profitable it is for the two leaders to be extorting and 
extracting resources from their own country, and then to know 
now, since the peace agreement has been reached, both the 
opposition and the country leadership itself is now here asking 
us for money to implement the peace agreement, which is pretty 
unique, I have to say that while we do not want to undermine 
the process and do not want to talk about plan B, it does seem 
to me that if the leaders are not committed to it, if they are 
profiting from the kleptocracy that exists there, how should we 
view what is occurring there?
    I mean, I think the independence of South Sudan occurred 
because of us, mainly. Yet we have obviously very corrupt 
leadership on both sides. How do we expect this peace agreement 
to actually bear fruit?
    Ambassador Lyman.  Senator, I think Ambassador Booth put it 
well, to say that for the moment we should try to make this 
agreement work, if at all possible.
    When I said that neither President Kiir or former Vice 
President Machar are committed, they are certainly not 
committed in my view to the long-term transformations and 
reforms that are needed. They may be led by pressures by arms 
embargoes and other things to need to end the conflict. I think 
doing everything we can to improve those incentives in the ways 
that we have all been talking about is important.
    I think empowering President Moghae much more and putting 
real power in his hands to push the parties forward will also 
help.
    I think it would be a mistake to jettison this agreement 
and walk away from it when so much work has been put into it. 
We have to recognize where those weaknesses are and press 
forward.
    If, with all of that, then it just simply does not work, 
you have to build up to what I suggested, a new and much higher 
level approach, but on paper, this agreement makes a lot of 
sense. But it relies too much on trusting those two to work 
together. I think much more pressure has to be brought to bear 
to make that even possible.
    Mr. Prendergast. A quick footnote to what Ambassador Lyman 
said. I think I would make one small adjustment. I am sure it 
is not really a disagreement at all. It is really that you can 
pursue both tracks at the same time. I think that is what 
panelists can do as nongovernmental actors and the Senate 
Foreign Relations Committee can do so effectively, and you have 
so effectively so many different times, and that is, while 
pressing and pushing and pursuing the implementation of this 
existing agreement, which by the way does provide an exit ramp 
off a one-way road to hell that South Sudan is on. We have to 
stop the bleeding. This agreement allows for that possibility, 
if fully implemented.
    But at the same time, this is really only the sort of small 
nuance from what Princeton said, at the same time, I think we 
should be putting in place now some of these elements that you 
would consider plan B. Part of them would be the kind of things 
that I was talking about where there are real financial 
accountability mechanisms and then particularly accelerating 
and pressing and pushing the legal accountability measures that 
both of my colleagues have talked about.
    So I think pushing both forward much more robustly at the 
most senior level we possibly can and building a multinational 
coalition of countries who can act when the Security Council 
cannot because of the divisions within it.
    The Chairman. I very much appreciated your testimony. I 
know Senator Cardin did, too. You are, in essence, arguing that 
we begin collecting the stolen resources that both the 
president and the opposition have engaged in. I assume you are 
also talking about beginning sanctions efforts.
    I hear Ambassador Lyman talking about the fact that while 
they are committed, they are committed for the short term. They 
are not committed for the long haul. In other words, they would 
like to buy some time but revert to the same activities that 
they have been involved in after the short term.
    Is that what I am hearing you say?
    Ambassador Lyman.  I just do not think that you could 
expect them to be committed to a real new constitution, clean 
elections, and accountability that might, as you suggested, 
leave them both ineligible to be president at the next 
election.
    The Chairman. It sounds to me, you never want to prejudge, 
but based on the evidence that it would leave them both in jail 
and without resources.
    So again, I do not know. I hear everybody talking about 
this agreement as the best agreement on paper. We are dealing 
with people. People usually act in their own self-interests. By 
pursuing the route you are talking about, which sounds 
interesting to me, John, but hearing the backdrop that 
Princeton is laying out, it does not sound to me that going in 
that direction is going to lead to places.
    It sounds to me like some of what we heard yesterday, 
Senator Cardin, where, unless you are going to somehow or 
another absolve these two leaders of their wrongdoings and let 
them continue to have the resources that they have stolen from 
their own citizens and probably from us, let us face it, that 
there is no way this peace agreement is going to come to 
fruition.
    So if you would, is that a fair statement or not?
    Ambassador Lyman.  Well, I would put it this way. It is a 
very fragile agreement for exactly those reasons. However, you 
have to remember, there is more in South Sudan than these two 
leaders. There are others who are deeply concerned about this 
kind of transformation.
    One of the recommendations I made is that the U.S. invest 
heavily in enabling them to play a role, professionals who have 
been pushed aside, judges who can come into the system, women's 
groups, others who can add real substance to this peace 
process.
    But second, it seems to me, and this is why I think that 
the appointment of the head of the hybrid court should be now, 
is that the head of the hybrid court and President Moghae 
working together can hopefully put pressure enough on those who 
are culpable that eventually they will step aside.
    Now that is going to take a real effort on their part, and 
that is why I was distressed to hear the timing on the hybrid 
court is so late.
    Parallel to that, and picking up on what John said about 
parallel actions, as I mentioned, there is a report that will 
go to the U.N. very specifically on who is blocking the peace 
and who is attacking peacekeepers. That gives the Security 
Council a role to play on accountability.
    There is also information not yet public behind President 
Obasanjo's Commission of Inquiry that also names names. That 
part of the report has not been made public.
    So there is a lot of evidence that, if I can put it 
bluntly, can be used as pressure on the parties to eventually 
have those who are the real perpetrators and the obstacles step 
aside for a real transformation process.
    The Chairman. Yes, sir, go ahead.
    Mr. Prendergast. Thank you very much. I would just turn it 
upside down, the whole question.
    I would argue that the lack of accountability for war 
crimes and for mass corruption ensures continued instability 
and conflict. You have to break the cycle at some point. It is 
very unpredictable what happens when you break that cycle.
    The threat of serious consequences, in my view, the actual 
imposition of serious consequences is the one thing that can 
change calculations of parties that for decades have destroyed 
their country and seen simply no cost for that.
    Political transitions from one leadership to the next 
leadership group, if they are resisting it, are inherently 
highly unstable and unpredictable. What we as the United States 
can do is introduce some of these consequences and costs for 
the commission of these war crimes and crimes against humanity 
and mass theft of resources of the country. We can introduce 
these consequences in order to affect calculations.
    And maybe look at a country like Liberia, where you 
actually had an international effort, which worked assiduously 
for transition. Had Charles Taylor simply complied with the 
conditions of his asylum, he would be today enjoying a nice 
life in Nigeria. But he did not.
    In other words, we do not know where these guys will end 
up. They do not all have to end up in The Hague. There are 
different ways to do it.
    But unless you start the ball rolling where they start to 
see the game is up, their number is going to be called, they 
are not going to change, I do not think. We cannot manage it 
how it is going to happen, but we can start the process.
    The Chairman. I do not think you will have any debate here 
on that approach. I just think, in taking that approach, which 
to me is the right approach, you are very unlikely to have the 
leader of the opposition and the leader of the government 
working toward the peace agreement that we are talking about 
right now.
    So it is quite a conundrum. Personally, I see failure.
    I will now turn to our ranking member.
    Senator Cardin. Well, Mr. Chairman, we should also point 
out that the peace agreement envisions that these two 
individuals are going to be president and vice president. I do 
not want to prejudge their culpability. I really do not. I mean 
that sincerely.
    But it does point out that there needs to be a plan B. I 
think this panel has been very, very helpful in understanding 
what a plan B looks like.
    I do not disagree that you can do two things at one time. 
You can pursue a peace agreement and you can pursue the 
alternatives. I think what you have suggested, particularly on 
accountability, is very much part of the future of South Sudan.
    The embargoes, I very much understand that. We need to work 
with the African Union. That is absolutely essential in order 
to be able to enforce that. All of that is understandable.
    We certainly want to maintain the humanitarian assistance 
to the people. But we also have to understand that unless you 
have an effective way to get that humanitarian assistance, you 
cannot rely upon government networks that could divert those 
sources to fund corruption. So you have to also be careful that 
you just do not do things because it sounds good. It has to 
effectively be able to get to the people who are in need. That 
is where I think you have been extremely helpful.
    Obviously, corruption is a huge issue here.
    Mr. Prendergast, your comments really struck home. We very 
much want to be able to prevent the corrupt officials from 
being able to enjoy the fruits of their corruption by parking 
them in U.S. banks or visiting their properties in the United 
States.
    Where do they try to keep their resources? Do they keep it 
in South Sudan? Are they trying to move it around?
    Mr. Prendergast. Well, you hit the nail on the head. Very 
rarely do you see kleptocratic leaders keep their money under 
their mattresses in their home countries. They internationalize 
the profits almost immediately in the form of real estate and 
front companies and all kinds of different investments. Their 
families live fairly lavish lives, and this is all while their 
country is being immiserated.
    So what we are doing now is, because the collection 
priorities right now for the United States Government are, 
understandably: Russia because of Ukraine, ISIS, Iran, and a 
number of other high-priority targets, we have decided to fill 
the gap in U.S. collection efforts, intelligence collection 
efforts, privately. We are building a team or expanding a team 
to put together the dossiers that the United States Government, 
the British Government, other governments that have a 
jurisdiction and authority, can then act on. We cannot subpoena 
records. But we can take the information trail right up to the 
bank account itself or the property records and all the rest of 
it.
    So we are putting all those together. In the spring of 
2016, we are going to launch fairly high profile publicly. But 
privately, we have been working very closely with various 
enforcement agencies in different governments around the world.
    You often see these sanctions regimes will sanction a 
couple midlevel commanders who are fighting in the field. They 
do not have their assets anywhere else. They are not even 
people who are feeding off this kleptocratic network. So we 
have to go after a higher order of leader.
    Senator Cardin. I think that would be very helpful. Thank 
you.
    Mr. Akwei, you have stated what I think all three of the 
witnesses on this panel have stated, and that is that until 
persons linked to human rights violations are brought to 
justice, there will be no incentive to change behavior, and no 
progress toward improving the respect and protection of human 
rights.
    How do you see implementing a peace agreement under the 
terms that have been negotiated? How can that incorporate true 
accountability?
    Mr. Akwei. I think what Ambassador Lyman said is that you 
basically have to decrease the power and influence of the two 
main players that you correctly said it is not in their best 
interest to move this forward.
    If you can bring in the kinds of civil society involvement 
to kind of diminish and to basically empower the people of 
South Sudan, then you begin to have an actual framework not 
only for building enduring mechanisms of accountability, but 
also for ensuring adherence to any agreement.
    Absent that, you are left with two individuals who have a 
track record now of ignoring deadlines and obligations.
    This is why the government's closure of political space is 
so dangerous. It is not just another inconvenient development. 
It is actually fundamentally blocking what is an essential 
plank of the peace agreement or any movement forward.
    So the two have to go hand in hand. The accountability 
mechanisms the United States can push and show that these are 
going to be genuine, credible mechanisms that are going to hold 
people to account is one thing. But empowering and protecting 
and reinforcing the role of the actors that represent the 
people is probably just as important.
    Senator Cardin. Thank you.
    Ambassador Lyman, your plan B, some of it we can implement 
ourselves by unilateral action by the United States. Some of 
this we can work with international organizations in order to 
deal with it. But a huge part of it depends upon the 
effectiveness of working with the African Union. What is the 
prognosis that the African Union has the will and can be 
effective?
    Ambassador Lyman.  I agree with you completely, because 
they are right at the center of it. I think up till now, the 
African countries, partly because of different interests among 
them and for other historical reasons, have come up with what I 
would call the lowest common denominator peace agreement. It is 
good on paper, but it rests on a lot of things that we have 
talked about.
    This is part of the high-level diplomacy that President 
Obama was doing in July and which I am urging the Vice 
President and others to do now, to work with the Africans and 
recognize this peace agreement is too fragile as it now works. 
Their interests are being undercut, if this war continues. 
Whatever individual interests might be there, the region will 
suffer greatly.
    To bring them to doing things, which are very tough, in 
effect empowering that mechanism to become--in effect, putting 
South Sudan into receivership. The African Union does not like 
to do that to a sovereign government, but it has to move in 
that direction, or as we talked about in plan B, agreeing to 
very tough sanctions.
    They have done this before. They did this years ago in 
Burundi when the surrounding countries enforced a trade ban and 
really brought the country around. They have to agree to an 
arms embargo that is enforceable. They have to agree to a trade 
ban. And I would add one other thing that is hard, because of 
the Chinese and the Sudan Government, eventually getting the 
oil proceeds into an escrow account, so you really deprive the 
contending parties of the resources to carry on the war.
    Bringing the African countries to recognize that this 
process is too fragile now and take these additional steps, 
that is where the high-level diplomacy I think it needs to be.
    Senator Cardin. Thank you very much.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses for your important work and your 
testimony.
    One of the reasons I love this committee is I get a chance 
to educate myself on areas that I do not feel an expertise in. 
On this committee, I spent most of my time working on the 
Americas and on the Middle East. I lived in the Americas. I 
have done a lot of travel to the Middle East. But my time in 
Africa has been very limited. So I love coming to hearings like 
this so I can learn more.
    Really, my questions are going to be, Ambassador Lyman, 
with respect to your last point, which is we can exercise a lot 
of power with respect to levers we have to try to enforce norms 
that we think are important. But if the norms are not the norms 
of the region, norms that the region thinks are important, and 
the region is not willing to enforce, then all the levers that 
we have I think will only have a modest impact.
    If the region enforces the norms, we are dealing with this 
with ISIL right now, we are dealing with this in a lot of 
issues in the Middle East, and, frankly, we have dealt with 
this in the Americas too, people telling us, boy, we really do 
not like what Venezuela is doing, but they are not going to 
stand up and condemn. Or people telling us, hey, we really do 
not like what a particular government in the Middle East may be 
doing that is authoritarian, but we cannot stand up and 
publicly condemn it. It would be better if the United States 
did.
    We see this everywhere, and yet what we have seen is our 
levers are dramatically reduced in effectiveness if the norm is 
not enforced by the region.
    You talked about the need for high-level diplomacy with 
other African nations. One of the phrases you use is discussing 
to help them see that this war endangers them. I mean, do we 
really need to help nations that are right there see that the 
war endangers them? They see it. They must see it. If we see it 
from thousands of miles away, they see it.
    But what are the obstacles, either to nations or a regional 
group of nations or the institutions in Africa, to standing up 
and saying, hey, this is unacceptable behavior?
    You used the Burundi example. What would be some things 
that we could do to hasten a recognition, okay, we took these 
actions with respect to Burundi, we should take them with 
respect to South Sudan.
    If it is us taking actions, I think the effect will be, 
frankly, de minimis. But if it is the region promoting a norm 
and we are helping underline and support a regional norm, we 
are going to have a lot more effect here.
    So you might start, Ambassador Lyman, but if others have 
thoughts too, I would love to hear them.
    Ambassador Lyman.  Thank you, Senator. You put it very 
well.
    I think to unpack a little bit the limitations in the 
region, as well as the strengths, as I mentioned, earlier, some 
of those countries have different interests. At the beginning 
of this crisis, Uganda and Sudan saw themselves fighting for 
influence in South Sudan. Uganda sent troops in on behalf of 
President Kiir. Sudan probably sent some aid to Riek Machar.
    That is gradually being unpacked. The Ugandans finally have 
pulled their troops out. That opens the door for lessening 
that. But it took a lot of diplomacy, a lot of effort by the 
Africans, by the Americans, et cetera.
    The second thing is people are profiting from this. I mean, 
John has pointed out that people profit. People do profit. They 
sell arms. They do other things. They have economic interests. 
That has held things back.
    Third, the region has not quite paid a big enough price. 
Yes, refugees flow in every direction, but it has not upset 
their stability to a great extent.
    So on the other side there is a great deal of frustration 
in the region about the South Sudan crisis and the failure of 
the peace process so far.
    So I think the opportunity, and if this agreement continues 
to be in trouble, is to build a recognition that much, much 
stronger steps need to be taken. The fact that they finally 
published President Obasanjo's Commission or Inquiry report--
and I commend that report by the way. It is hard reading 
because of the terrible, terrible things that went on, but it 
is also a very good analysis of what the institutional 
weaknesses were in South Sudan. The fact that they finally 
published that said that they were not going to keep it secret.
    That they selected someone as distinguished as President 
Moghae to step in and sort of be the overseer, a little 
movement.
    But I think if things really fail, I think it is possible 
for all of them to get together and say we are going to have to 
do more. The costs are going to get greater for all of us, 
because the region--you have Somalia, you have problems 
elsewhere in the region--the region cannot afford over a long 
time this cancerous struggle.
    And I think you can build that. And I think with the right 
politics and diplomacy, the Africans will come around to 
saying, yes, we agree. We have to ratchet it up because it is 
not working. It is just going to take a lot of effort.
    Senator Kaine. Great.
    Others? John, please.
    Mr. Prendergast. Building on what Princeton said, this is 
where economic strategy can support U.S. political diplomacy. 
Many of the ill-gotten gains, the assets are parked in 
neighboring countries. Many of the families are living in 
neighboring countries.
    So, for example, just one example, the U.S. anti-money-
laundering provisions that I talked about earlier, if enacted, 
would send a powerful signal to the banks in the region. That 
would get the attention at the senior most levels of those 
regional governments.
    Second example, and Princeton alluded to it, the top trade 
partner for Uganda in the world is South Sudan. If you start 
affecting that relationship, which the war has already done, 
which is part of their calculation as to why they want to try 
to clean it, but if you accelerate the impact like with some of 
the provisions Princeton is talking about in his plan B, you 
will get their attention very quickly. And I think they would 
become much more robust supporters going forward of the 
stronger policy toward the protagonists in the South Sudan war.
    Senator Kaine. Please, Mr. Akwei.
    Mr. Akwei. One of the narratives that we have to help build 
are these other voices. In other words, not just the big men 
deciding what is in their best interests, and then assuming 
that their best interests equates to their country's interest.
    This is why political space and civil society in Sudan, it 
is linked to civil society and political space in the region 
and the continent. If you do not have that as a focus and have 
the U.S. continue to press for that and protect that space, you 
are not going to be able to have that kind of narrative that 
you are talking about being accepted as important enough to 
trigger political change.
    I think that is obviously a much larger and longer 
challenge but it is critical in this case because just having 
the leaders of Uganda and Sudan decide and basically direct or 
dictate and impact activities and developments and progress is 
a recipe for disaster.
    Senator Kaine. I really agree with you with respect to the 
civil society component of this. If you look at the Arab 
Spring, the nation that has probably done the best, though it 
is very fragile and they are under attack and their success 
invites attack because there are those who just do not want 
them to succeed, has been Tunisia.
    Tunisia was notable for a very vigorous civil society, 
labor unions, physician organizations, bar associations. 
Probably a little bit because of the French model, they had a 
big civil society that was not government, that was not 
religious organizations, but kind of at critical times would 
act to keep things from going off the rails.
    So the work that we do to create that civil space is an 
important part of the diplomatic mission.
    I appreciate your testimony.
    Thank you, Mr. Chair.
    The Chairman. Thank you for being here. And thanks for your 
strenuous efforts here in the committee and for being such a 
responsible member.
    We thank all three of you for being here. You all have so 
much wisdom and knowledge that is helpful to us not only on 
this subject, but others.
    My sense is there will be action taken as a result of this 
particular hearing. So, again, thank you very much. We look 
forward to continuing our discussions.
    If you would, we are going to leave the record open until 
Monday afternoon. You are likely to get questions from other 
members. If you would respond, we would greatly appreciate it.
    The Chairman. Again, thank you for your service.
    With that, the meeting is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record


          Responses to Questions for the Record Submitted to 
               Ambassador Donald Booth by Senator Cardin

    Question. The Peace Agreement calls for Security Sector Reform and 
for Demobilization, Disarmament and Reintegration (DDR).

  <diamond> Please provide a detailed summary of the administration's 
        plans related to support security sector reform including 
        activities, funding and any conditions we are asking the South 
        Sudanese to meet prior to beginning support for such reforms.
  <diamond> Too many times after conflict DDR is not fully implemented. 
        How can we ensure that DDR is fully implemented in the wake of 
        the peace agreement? What specific lessons can be applied from 
        past DDR processes in South Sudan?

    Answer. Although we have had some discussions around security 
sector reform (SSR) and disarmament, demobilization, and reintegration 
(DDR) of former combatants, at this time it is too early to say what 
the Administration's support, including any funding, will look like. We 
believe that SSR and DDR will be critical elements of successful 
implementation of the peace agreement, and to that end the Special 
Envoy's office has organized and conducted two conferences to convene 
SSR and DDR experts for a discussion of lessons learned from past SSR 
and DDR efforts in South Sudan and elsewhere in Africa. We are also 
funding a military planning expert to assist the South Sudanese in 
conducting a Strategic Defense and Security Review as called for in the 
August peace agreement.
    The central lesson from past DDR processes, as discussed at the 
conferences, is that the political will of all national leaders from 
opposing sides is necessary for any DDR process to be successful. 
Therefore, engaging the commitment of South Sudan's leaders will be a 
critical first step in determining whether and, if so, what types of 
DDR program(s) to support. As with reconstruction, we will need to see 
a commitment of South Sudanese resources to SSR and DDR along with 
engagement by other international partners.

    Question.  The report of the African Union Commission of Inquiry of 
South Sudan states that there are reasonable grounds to believe that 
the abuses amount to war crimes and crimes against humanity.

  <diamond> Has there been any attempt by the government to arrest or 
        detain those implicated in the report?
  <diamond> Has the leadership of the SPLM-iO turned over anyone 
        accused in the report for detention or otherwise attempted to 
        hold perpetrators of such violence responsible for their 
        actions?

    Answer. The answer to both questions is no. The African Union (AU) 
Commission of Inquiry has not made public an annex from the report that 
names individuals the Commission has identified as responsible for 
crimes indicated in the report. We have been told that the AU 
Commission will turn over the annex to the Hybrid Court for South Sudan 
once it is established. We have concerns about fair trial protections 
in the absence of a hybrid court and the development of a system for 
the indictment, arrest, and trial of any accused perpetrators.

    Question.  The report of the African Union Commission of Inquiry of 
South Sudan indicates that lack of follow through on accountability in 
the Comprehensive Peace Agreement was a factor in the outbreak of 
recent hostilities. The African Union--in accordance with Chapter 5 of 
the peace agreement--has agreed to lead the establishment and 
operationalization of a Hybrid Court to hold perpetrators of serious 
violence accountable. Secretary Kerry announced $5 million to support 
accountability in South Sudan.

  <diamond> How does the State Department plan to allocate the $5 
        million that Secretary Kerry pledged earlier this year for an 
        accountability mechanism?
  <diamond> Does the Administration envision direct financial support 
        for the hybrid court?
  <diamond> You mentioned in your testimony that there are 
        organizations currently on the ground documenting and 
        collecting evidence that could be used in criminal proceedings. 
        Who is responsible for maintaining the evidence and how will it 
        be used?

    Answer. In May, Secretary Kerry announced our intent to provide $5 
million to support justice and accountability in South Sudan. We intend 
to support the Hybrid Court for South Sudan provided for in the August 
peace agreement, and we are also supporting human rights documentation 
efforts more broadly. Subject to the availability of funds, we intend 
to provide $3.5 million to support a credible, impartial, independent, 
and effective accountability mechanism, which could include direct 
financial support to the hybrid court if it meets those and other 
criteria. We are in dialogue with the African Union, which has 
responsibility, along with the Transitional Government of National 
Unity, for establishing the court as provided for in the August peace 
agreement.The other $1.5 million announced by Secretary Kerry is being 
used to fund a human rights documentation effort, run by the State 
Department's Bureau of Democracy, Human Rights, and Labor (DRL), that 
will build the capacity of local organizations to gather information on 
relevant violations and abuses. Currently there is no central database 
for information regarding evidence of atrocities, and a number of 
organizations such as UNMISS and the Commission of Inquiry each 
maintain its own records; we anticipate, however, that through our 
documentation program we will be able to support the creation of a 
central database to maintain documentation of atrocities. Once the 
program is underway, implementers will recommend an independent entity 
to be responsible for such a database.

    Question. The State Department has documented violations by the 
government of South Sudan of democratic freedoms since 2012, including 
``corruption, harassment of nongovernmental organizations (NGOs) and 
attacks on their workers, illegal detentions, intimidation of 
journalists, and detention by security forces.''

  <diamond> We are heavily critical of governments, such as the one in 
        Khartoum, that engage in these practices. What actions have we 
        taken to press the government in Juba to improve respect for 
        constitutional rights and fundamental freedoms of its citizens?

    Answer. In both public and private messaging, this Administration 
has been critical of the Government of South Sudan regarding a number 
of its actions, including those that jeopardize the peace process as 
well as those that restrict enjoyment of human rights and fundamental 
freedoms. Among the most prominent critical messages were Secretary 
Kerry's statement on March 2, 2015, condemning the government's failure 
to abide by the Cessation of Hostilities, and the public statement by 
National Security Advisor Rice on July 9, 2015, the occasion of South 
Sudan's National Day, in which she criticized the government's failure 
to make peace. We have also made public statements from Washington and 
Embassy Juba concerning interference with humanitarian assistance.In 
private engagement, Ambassador Phee and other Embassy officials press 
government officials at all levels regarding a range of troubling 
actions, including President Kiir's threatening remarks regarding 
journalists, the closing of newspapers by the South Sudanese security 
services, unlawful detentions of civil society activists, and the NGO 
bill, in addition to urging the government to immediately fulfill 
commitments from its signed joint communique with the United Nations to 
combat the country's epidemic of sexual and gender-based violence. We 
have also engaged senior South Sudanese government officials on the NGO 
bill on multiple occasions. Ambassador Phee most recently discussed 
U.S. concerns about the hostile treatment of journalists with Michael 
Makuei, the Minister of Information and Broadcasting and Government 
Spokesman, on December 14.

    Question.  Corruption has plagued the government of South Sudan 
since its inception. In 2012, barely a year into independence, 
President Kiir accused 75 ministers and officials of having stolen $4 
billion in state funds. It ranks 171 out of 175 on Transparency 
International's corruption perception index. One analysis published in 
July states that ``the country's elites have built a kleptocratic 
regime that controls all sectors of the economy, and have squandered a 
historic chance for the development of a functional state.'' Chapter 
III of the Peace Agreement calls for legislation establishing an 
Economic and Financial Management Authority (EFMA) to ensure 
transparency and accountability and oversee public financial 
management.

  <diamond> How much do we estimate has been stolen due to official 
        corruption in South Sudan?
  <diamond> Has there ever been any credible effort to investigate, 
        charge or convict a government official of corrupt acts?
  <diamond> What, if any, discussions have taken place relative to the 
        development of the implementing legislation creating EFMA?
  <diamond> Has the development of such legislation been a priority in 
        our diplomatic discussions with the government of South Sudan?
  <diamond> There are supposed to be donor representatives on the 
        Authorities Board. Have we been approached to participate?

    Answer. Numerous international independent watchdog organizations 
have alleged widespread official corruption in South Sudan and we have 
consistently reported in our annual Human Rights Report and elsewhere 
that corruption remains a pervasive and concerning issue. Anecdotal 
evidence supports these claims; however, thus far, there have been no 
reliable data that precisely capture the total cost of corruption or 
the amount of funds diverted as a result of official corruption. We are 
considering ways to improve our ability to detect and deter official 
corruption in South Sudan.
    As outlined in Chapter IV of the Agreement of the Resolution of the 
Conflict in the Republic in South Sudan (ARCSS), the Transitional 
Government of National Unity (TGoNU) is required to establish the 
Economic and Financial Management Authority (EFMA) within four months 
of the transition. Although the TGoNU has not yet been established, 
creating the space for an active and effective EFMA is a U.S. priority, 
and we continue to engage both the Government of South Sudan and the 
opposition, in addition to the leadership of the Joint Monitoring and 
Evaluation Commission regarding the importance of immediately 
establishing and providing the necessary political support for the 
EFMA, once the transition begins.
    Chapter IV of the ARCSS calls for the establishment of an Advisory 
Committee, charged with advising and building the capacity of the EFMA, 
as well as assessing and reviewing the effectiveness of the EFMA's 
oversight functions. The ARCSS outlines that membership of the Advisory 
Committee will include representatives from three major donors. Once 
the EFMA is established, we are well-positioned, as the largest donor, 
to assume one of the three donor representative positions and to play 
an active role on the committee.

    Question. The U.N. panel of experts report states that 
``obstruction of humanitarian assistance and of peacekeeping operations 
has . . . escalated since the adoption of resolution 2206.'' Executive 
Order 13664 authorizes targeted sanctions against individuals or 
leaders who obstruct the delivery or distribution of humanitarian 
assistance.

  <diamond> Have we identified anyone for sanctions under this 
        provision?
  <diamond> Are such sanctions under consideration?

    Answer. On July 1, 2015, the Security Council Sudan sanctions 
committee imposed sanctions under UNSCR 2206 on six individuals 
responsible for obstructing the peace process, committing violations of 
international humanitarian law and human rights violations and abuses, 
and attached against United Nations missions. The committee designated 
three each from the government and opposition sides: Major-General 
Marial Chanuong Yol Mangok; Lieutenant-General Gabriel Jok Riak; Major-
General Santino Deng Wol; Major-General Simon Gatwech Dual; Major-
General James Koang Chuol; and Major-General Peter Gadet. All are 
subject to a global travel ban and asset freeze under the sanctions 
resolution. The United States has sanctioned these six individuals 
under E.O. 13664.We believe additional sanctions, either U.S. sanctions 
under E.O. 13664 or multilateral sanctions through the U.N. Security 
Council, could serve as an important tool should implementation of the 
peace agreement falter, and we are continually assessing the 
appropriateness of such measures. We are cognizant, however, of the 
difficulty of obtaining multilateral sanctions without regional 
support--without which support from the African nations on the Security 
Council is unlikely--and so generally would seek such support from the 
Inter-Governmental Authority on Development (IGAD) countries and other 
influential African States.

    Question.  The Panel of Experts has also begun investigations into 
the financing channels used by the parties to prosecute the war. And 
according to their August interim report, the government and opposition 
are ```deriving significant financial benefit from the war.''

  <diamond> Do we have any idea who in the government and the 
        opposition are profiting from the conflict?
  <diamond> How much has the South Sudanese government invested in 
        assisting war affected communities during the course of this 
        conflict?

    Answer. To date, concerted, interagency efforts to monitor and 
assess the finances of South Sudanese officials and others who may have 
been profiting through corruption or from the conflict did not yield 
significant results, due to the obscurity of many officials' finances 
and the relative lack of information from financial institutions in the 
region.
    The potential for South Sudanese officials and others to profit 
from ongoing conflict--and the incentive, therefore, to prolong the 
conflict--is deeply concerning to us, and we continue to seek greater 
transparency of South Sudan's public finances. We regularly liaise with 
representatives from non-governmental organizations that are also 
undertaking efforts to shed light on official corruption in South 
Sudan.
    The government has not invested in assisting war-affected 
communities. As we have noted numerous times in public statements and 
private engagement with the government, GORSS funding for basic 
services was low before the conflict and has declined since December 
2013. In many parts of the country, services come entirely from the 
international donor community, including the United States and its 
implementing partners. This is an intolerable situation. As we have 
made clear to the GORSS and the opposition, they must commit their own 
resources to implementation of the peace agreement, including 
reconstruction and support to war-affected communities, if we and other 
nations are going to commit further funding.

                                 ______
                                 

          Response to a Question for the Record Submitted to 
                Mr. John Prendergast by Senator Cardin.

    Question. What sort of help should we be asking for from 
governments in the region--Kenya, Ethiopia, and Uganda, for example--in 
recovering assets that are suspected to be stolen, or identifying them 
in keeping with sanctions?

    Answer. We greatly appreciate the opportunity to answer this 
excellent question, which gets at the heart of two critical issues: a) 
how to ensure global sanctions designations made are enforced by South 
Sudan's neighbors and political allies and b) how to ensure that 
illicit or stolen assets are not shielded by private banks or 
governments in the region.
    It is unfortunately not surprising that we have direct knowledge of 
sanctions violations, such as witnessing designated individuals 
traveling in the region. Clearly, the existing U.N. and OFAC 
designations are not being enforced in the region, and this was 
entirely predictable. In fact, this was the topic of Neighborhood 
Watch, an in-depth study by the Enough Project published in June 2015, 
as fighting was intensifying on the ground. The study found that 
despite failing peace talks and public threats made at the time by 
Ethiopia, in particular, there was little actual political will to see 
sanctions designations against either party. Uganda, a key military 
ally to the government of South Sudan involved directly in the 
fighting, openly lobbied against sanctions at the U.N. in New York.
    In order to ensure effective assistance from the region, we need to 
address three underlying concerns: i) need for higher profile and 
broader designations; ii) lack of political will to enforce any 
designations; and iii) limited technical capacity and underdeveloped 
legal and regulatory frameworks even where political will does exist.
    At this stage, only six relatively low-level commanders have been 
sanctioned. Few of these individuals are critical players, and none 
appear to have access to or be conduits for substantial assets. In 
order to trigger the type of asset identification and recovery the 
question refers to, the sanctions regime needs to be more 
comprehensive.
    The issue of political will requires continued and sustained 
diplomatic outreach at the highest levels by U.S. government officials 
to convey that this is a priority for us, that there is a willingness 
to create consequences for regional non-enforcement, i.e. withholding 
of bilateral assistance, and that we are able to provide political and 
economic incentives to enhance cooperation on sanctions enforcement, 
such as increased technical assistance to address the capacity gaps.
    This outreach should also emphasize to Kenyan authorities, for 
instance, that if they want the country to be a banking leader in the 
region and on the continent, they need to step up their enforcement 
efforts, including more direct oversight of financial institutions. 
President Kenyatta recently delivered a sweeping address in which he 
outlined numerous plans and strategies to develop further their 
institutional infrastructure to combat corruption and money laundering. 
The United States should work to ensure that these promises are 
delivered upon.
    On technical capacity and reforming legal and regulatory 
frameworks, there are several areas where the U.S. can potentially 
provide assistance. Regional financial intelligence units (FIUs) that 
collect and share information between governments and banks are key to 
these efforts. Regional governments are looking for membership in the 
Egmont group of FIUs and may be open to accepting technical assistance 
from Treasury to bring their FIUs up to standard. For example, Section 
314(a) of the Patriot Act and implementing regulations empower FinCEN 
to engage directly with financial institutions to pursue information 
that has been requested by state, federal, or foreign law enforcement 
agencies. This is a model that regional FIUs should be encouraged to 
implement fully as a means of advancing asset identification.
    The threat of U.S. led investigations is also helpful in this 
regard, specifically if intelligence community collection requirements 
were issued that could potentially result in information that would 
enable FinCEN to assess money-laundering activity in the region, which 
Kenya, Uganda, and Ethiopia have made promises to combat as part of the 
counter-terrorism agenda. The intelligence agencies in these three 
countries should also be requested to provide to the United States any 
asset-related and travel information connected to sanctioned 
individuals and other politically exposed persons of interest. This can 
further assist the investigations of Treasury and other enforcement 
agencies.
    If regional governments provided the type of cooperation necessary 
to expand the sanctions list to include more effective targets, 
demonstrate political will to enforce such sanctions, and accept any 
necessary technical assistance that would create a more seamless 
international enforcement system, then we believe South Sudanese assets 
would be more easily traced and returned to the people of this war-torn 
country that so desperately needs them.

                                 ______
                                 

          Responses to Questions for the Record Submitted to 
                   Mr. Adotei Akwei by Senator Cardin

    Question. The African Union Commission of Inquiry report was 
completed in late 2014, but was not released until October of this 
year.

  <diamond> Do you have any idea why the release was delayed?

    Answer. The delay of the release of the report was based on the 
belief that publication of the report would jeopardize the mediation 
process facilitated by the Intergovernmental Authority on Development 
(IGAD).

    Question. Are you concerned that the delay is an indication of lack 
of commitment by the African Union to fulfilling its role under the 
peace agreement to establish the hybrid court?

    Answer. The continual delay in releasing the report stoked 
disillusionment on the AU's commitment to justice and accountability. 
However in the Communique of 26 September the AU Peace and Security 
Council strongly supported the implementation of the Agreement on the 
Resolution of Conflict in south Sudan (ARCISS, hereinafter referred to 
as August peace agreement) and especially as it relates to peace, 
security, stability, justice, reconciliation and healing in South 
Sudan.

    Question. What should the international community be doing to 
ensure the AU carries through with the report's recommendations?

    Answer. Maintain pressure on the AU to implement the 
recommendations of the report of the AU CISS and lend financial and 
technical support to this end.
    The human rights situation, both in terms of the conflict and in 
terms of the overall atmosphere in the country, has been challenging, 
and conditions are deteriorating.

    Question. What steps can we take to support an improvement in human 
rights conditions in the country?

    Answer. Ensure and maintain concerted pressure towards Government 
of South Sudan and the SPLM/A-IO to adhere to the human rights and 
humanitarian provisions of the August peace agreement and in particular 
to ensure humanitarian access, facilitate the safe return of internally 
displaced populations and cooperate with the transitional justice 
mechanisms including the hybrid court for South Sudan
    Support the imposition of sanctions for individuals held 
responsible for violation human rights and international humanitarian 
law and also support the imposition of an arms embargo on South Sudan 
to stem the flow of weapons into the country.
    Urge the government of south Sudan to deposit instruments of 
ratification of the African charter on human and people's rights and 
the AU convention relating to the specific aspects of Refugee problems 
in Africa and to also ratify other key human rights treaties.
    Support civil society in their work as a public watchdog. This can 
be done through ensuring legal and institutional reform of particularly 
the security sector and also ensuring capacity building and support to 
civil society to be able to effectively monitor and report on human 
rights violations.
    Support the establishment and operationalization of the hybrid 
court for South Sudan through provision of financial and technical 
assistance. Also urge for immediate investigations to ensure evidence 
collection and preservation.

    Question. Given the role government forces have played in some of 
the abuses and the insufficient government efforts to prosecute abuses, 
how, and when, should the United States reengage with the security 
sector?

    Answer. The USA is part of the stakeholders whose representatives 
comprise the Ceasefire and Transitional Security Arrangements 
Monitoring Mechanism (CTSAMM) . The CTSAMM has mandate to monitor and 
report on the conduct of parties with regard to security arrangements 
put in place during the transitional period. This includes permanent 
ceasefire, separation and cantonment of forces. It therefore has an 
important role to play in ensuring all parties comply with agreed 
security arrangements,
    The USA should identify ways it can engage with the strategic 
Defence and Security Review Board . The board has mandate to provide a 
roadmap for security sector reform.
    Advocate for the reform of the National Security Service: In March 
2015, the Justice Minister announced that the National Security Service 
Bill, passed by Parliament on October 8 2014, had become law. The law 
grants the NSS extensive and broad powers of arrest, detention and 
seizure without adequate safeguard mechanisms or safeguards against 
abuse and therefore emboldens their misconduct. Cases of enforced 
disappearances, arbitrary arrests and prolonged detention have 
escalated since the conflict began with allegations of torture and ill-
treatment while in custody.

    Question. The war broke out little more than two years after 
independence. After decades of fighting Khartoum, the people of South 
Sudan have witnessed unspeakable violence at the hands of their own 
leaders. I fear that the unprecedented level of brutality may have 
rendered reconciliation more difficult, if not impossible.

  <diamond> In your opinion, has the level of brutality rendered 
        reconciliation impossible?

    Answer. The conflict has indeed affected and damaged the social 
fabric of the country. It has pitted ethnic groups against each other 
and has also led to subdivisions within some ethnic groups for instance 
the Bul Nuer (a section of the Nuer ethnic group) has been fighting 
alongside the government forces in Unity state against other Nuer 
communities). Similarly the environment is currently very complex, 
fragile and highly politicized. There will therefore be no quick fix in 
reconciling South Sudanese and the many competing narratives/truths 
that have been put forward in the duration of the conflict. However all 
South Sudanese recognize the need for reconciliation now or later and 
there are existing national and community level initiatives that 
continue to run and need immediate and medium term support. It is also 
very important that the provisions of the Agreement on the Resolution 
of Conflict in South Sudan on accountability, justice and 
reconciliation are implemented to facilitate and enable the process of 
healing and reconciliation.
    The August peace agreement provides for the establishment of the 
Commission for Truth, Reconciliation and Healing (CTRH) with a mandate 
to inquire into all conflicts since 2005 to the present and lead 
efforts to facilitate the process of local and national healing and 
reconciliation. The establishment and operationalisation of this body 
is critical towards ensuring reconciliation, truth and justice in South 
Sudan

    Question. What lessons can be applied from past reconciliation 
efforts in the country?

    Answer. The formulation of the National Dialogue for Peace and 
Reconciliation by the government in 2014 and the SPLM/IO's National 
Committee for National Reconciliation in the same year, indicated a 
vested interest in controlling the discourse on truth, justice and 
accountability. It is important to ensure the process of reconciliation 
is not seen as an elite driven process. It needs to be both at local 
and national levels. There is need for public participation especially 
of conflict affected populations.
    Currently, there is a National Platform for Peace and 
Reconciliation made up of various organisations (churches, civil 
society, governmental) including the Committee for National Healing, 
Peace and Reconciliation (CNHPR), the South Sudan Peace and 
Reconciliation Commission (SSPRC) and Specialised Committee on Peace 
and Reconciliation (SCPR) in the National Assembly, with a number of 
civil society groups all seeking to build a movement. The roles of all 
this bodies will be accommodated by the CTRH when established and the 
CNHPR in particular, will hand over all its records to the CTRH.
    Need to find a holistic approach in which issues of justice and 
reconciliation are pursued simultaneously and in complement to each 
other. It is widely recognized that an absence of accountability for 
past crimes/atrocities in South Sudan has contributed to the current 
conflict. The August Peace agreement provides for the establishment of 
a hybrid court for South Sudan, the aforementioned CTRH and 
Compensation and Reparations Authority.
    Provision of mental health care services: Decades of conflict since 
1983 have had a huge impact on the mental health and wellbeing of South 
Sudanese populations. A 2007 study carried out in Juba by Bayard 
Roberts, the director of the Centre for Health and Social Change at the 
London School of Hygiene and Tropical Medicine, found high levels of 
mental distress among the population surveyed. Thirty-six per cent of 
respondents met symptom criteria for Post-Traumatic Stress Disorder 
(PTSD) and 50% of those surveyed met symptom criteria for depression. 
The study showed a direct correlation between a traumatic event such as 
being injured or forcefully evicted with the likelihood of PTSD and 
depression.
    More recently, a survey of 1,525 South Sudanese people in conflict 
areas carried out by the South Sudan Law Society (SSLS) and the U.N. 
Development Programme (UNDP) between October 2014 and April 2015 found 
that 41% of respondents exhibited symptoms consistent with a diagnosis 
of PTSD. Another survey conducted by the SSLS in the Bor PoC site 
showed that almost all respondents reported suffering ongoing trauma, 
stress and poor mental health since an attack on the UNMISS PoC site in 
April 2014.
    Despite the staggering numbers, survivors of atrocities committed 
by both sides to the conflict are not receiving adequate mental health 
care support either within the protection of civilian sites or outside. 
Mental health is a particularly neglected component of the health 
sector in South Sudan yet addressing the mental health issues 
associated with the conflict and ensuring trauma healing is not only 
essential for the process of reconciliation but can lend to long term 
country stability.

                                 ______
                                 

           Respones to Questions for the Record Submitted to 
                   Mr. Bob Leavitt by Senator Cardin

    Question. The Agreement on the Resolution of the Conflict in the 
Republic of South Sudan calls for the establishment of a national 
Commission of Truth, Reconciliation and Healing.

  <diamond> When do we expect the Commission to come on line?
  <diamond> What programs does the United States government have at the 
        grassroots to promote reconciliation?
  <diamond> What role can the U.S. government play in ensuring that our 
        programs further the work of the Commission once it is up and 
        running?
  <diamond> What lessons can be applied from past reconciliation 
        efforts to ensure sustainable healing of communities?

    Answer. According to the Agreement, legislation mandating the 
creation of the national Commission of Truth, Reconciliation and 
Healing (CTRH) must be passed within six months of the establishment of 
the Transitional Government of National Unity and must commence 
activities no later than a month after passage of that legislation. As 
the Agreement's implementation is behind schedule, the Transitional 
Government has not yet been established. The Joint Monitoring and 
Evaluation Commission, which was created to oversee implementation of 
the agreement, released a timetable in November calling for the 
formation of the Transitional Government of National Unity by January 
22.
    USAID has a long history of supporting grassroots peace and 
reconciliation efforts in South Sudan, including prior to and during 
the Comprehensive Peace Agreement interim period (2005-2011) and 
independence. In the lead up to independence, USAID opened a small 
program in then-southern Sudan with the goal of mitigating local-level 
conflict along key national fault lines through grassroots-level peace 
dialogues with communities, traditional authorities, and local 
officials as entry points toward reconciliation. When the conflict 
broke out in December 2013, USAID shifted the program to prioritize 
grassroots efforts led by civil society, community groups, and others 
aimed at preventing the spread of conflict and supporting grassroots 
resilience to political-military pressures. In the current context, the 
program continues to focus on these areas. In coordination with other 
donors, USAID is currently exploring additional opportunities to 
support various reconciliation efforts led by South Sudan's active 
faith-based community and traditional leaders to advance grassroots 
reconciliation in 2016.
    When the CTRH becomes active and demonstrates its credibility and 
independence, the U.S. government plans to support the Commission's 
efforts through direct or technical support. The U.S. government may 
also continue to work to support other transitional justice mechanisms, 
including the hybrid court, to redress the atrocities committed during 
the conflict and promote long-term, sustainable peace.
    From past peace-building and reconciliation programming in post-
conflict contexts as well as past efforts in South Sudan, we have 
learned that the work of any truth and reconciliation commission must 
be based upon:

  <diamond> Transparency, independence, and impartiality: Truth and 
        reconciliation work must be viewed as legitimate in the eyes of 
        the South Sudanese, must be free from political manipulation, 
        must treat all sides equally, and must be open to public 
        scrutiny. If one side is ignored or the process is manipulated, 
        the process of truth-telling and healing will be significantly 
        hampered, and the recommendations of the CTRH will lack 
        legitimacy.
  <diamond> Consultation: All processes should involve consultation 
        with a wide array of stakeholders at all stages, including 
        civil society, victims' groups, women, youth and other 
        marginalized groups. Building a national consensus through 
        citizen involvement, buy-in and ownership will encourage 
        greater participation and sustainability.
  <diamond> Trauma healing: Reconciliation work should be paired with 
        efforts that address the needs of victims to heal, interrupt 
        the cycles of violence and build resilience.

    Question. Chapter III of the Agreement calls for the establishment 
of a Special Fund for Reconstruction within a month of the transition 
which is supposed to assess and determine the priorities for 
reconstruction. It calls for a representative from the Troika, of which 
the U.S. is a member, to participate.

  <diamond> Has the fund been set up?
  <diamond> Is the administration planning on making a financial 
        contribution to the fund?
  <diamond> Do we plan to send a representative to sit on the Board of 
        Special Reconstruction set up in the agreement?

    Answer. The Special Reconstruction Fund (SRF) has not yet been 
established, nor has the Transitional Government of National Unity, a 
precondition for establishment of the SRF. As provided by the peace 
agreement, the United States shall have one seat on the SRF Board, as 
will Norway and the United Kingdom, our Troika partners. The 
Administration is prepared to support reconstruction efforts provided 
that South Sudanese leaders show a commitment of their own to 
implementing the agreement and, in the case of the SRF, a commitment of 
funds to rebuilding their country. We have not yet determined whether 
we will provide a financial contribution to the SRF.

    Question.  Forty humanitarian workers have been killed since the 
onset of the fighting. Compounds of relief agencies have been broken 
into, humanitarian workers harassed, and there have been reports of 
sexual assaults against aid workers. Despite the dire humanitarian 
situation, the government still appears to want to move forward with a 
bill to govern the operation of NGOs that has some humanitarian 
organizations worried.

  <diamond> Has the government investigated and prosecuted anyone for 
        assaults on humanitarian workers or for breaking in and looting 
        compounds of humanitarian organizations?
  <diamond> What efforts has Ambassador Phee made to press the 
        government to investigate these incidents?

    Answer. We are not aware of any investigations or prosecutions 
undertaken by the government of South Sudan in response to these 
crimes.
    Ambassador Phee regularly raises the importance of the role played 
by the U.N. Mission in the Republic of South Sudan (UNMISS) and other 
U.N. agencies, as well as the contributions of humanitarian 
organizations, with senior officials at the national and state level. 
She has called on government officials to create a secure operating 
environment for humanitarian actors and to investigate and prosecute 
those responsible for committing crimes against humanitarian personnel 
and assets. She has discussed this issue on multiple occasions with 
Inspector General of Police General Pieng Deng Kuol Arap, Sudan 
People's Liberation Army Chief of General Staff Paul Malong and state 
governors. She regularly meets with humanitarian actors to ascertain 
their concerns and priorities to ensure she remains an informed 
advocate on their behalf and has used her engagements with the media to 
advance support for the U.N. and humanitarian organizations.
    In addition, Deputy Assistant Secretary for State/PRM Catherine 
Wiesner and I visited South Sudan in October to review the humanitarian 
situation in the country. We met with representatives of various U.N. 
agencies, diplomatic heads of mission, non-governmental organizations, 
and government officials. This high-level visit drew attention to the 
challenges facing the humanitarian response, as well as aid personnel 
operating in the country. South Sudanese officials reiterated their 
commitment to implementing the peace agreement and pledged to work to 
address issues of access and safety for humanitarian workers in the 
country. Ambassador Phee has continued to follow up on this commitment 
and urged government officials to take necessary measures to ensure the 
safety and security of all humanitarian aid workers in South Sudan.

    Question. In 2015, UNMISS, the AU and Human Rights Watch released 
reports alleging government and opposition forces and their allies gang 
raped and abducted young girls and women during fighting. Under the 
terms of the peace deal, the perpetrators of this violence and their 
superiors must be held to account for these crimes by the Hybrid Court. 
In the meantime, thousands of women are isolated in insecure areas in 
dire need of medical and psychological help.

  <diamond> How is the U.S. working with other donors to improve the 
        provision of health, psychosocial, legal and economic services 
        for survivors of violence?
  <diamond> What percentage of women and girls can be reached with such 
        services? Do we have a plan to increase the number of people we 
        are reaching? Do we have adequate resources to meet the need?

    Answer. The U.S. Government coordinates closely with other 
humanitarian and development donors and stakeholders, both at the 
headquarters level and in Juba, to ensure that resources are used as 
effectively as possible to address needs in South Sudan. This donor 
engagement includes coordinating to ensure that all implementers take 
the needs of women, girls and other vulnerable groups into account and 
that programs are designed in a way that is safe and accessible to 
those in need of assistance and does not exacerbate existing risks. 
USAID remains committed to ensuring that survivors of violence are able 
to access the care they need. Our programs include creating safe spaces 
for traumatized women, clinical management of rape, psychosocial 
counseling and reunification of children separated from their families 
during the violence.
    USAID programs work to prevent and address the effects of gender-
based violence (GBV) through its water, sanitation and hygiene (WASH) 
and Emergency Education programs. USAID and UNICEF have partnered on a 
three-year program to improve safe access to water, sanitation and 
hygiene facilities among internally displaced populations and other 
vulnerable communities. The program has incorporated activities to 
prevent and respond to GBV and reaches more than 189,000 people in 
seven states. Since May 2014, USAID and UNICEF have partnered to 
provide emergency education to children forced to flee their homes due 
to conflict in South Sudan. The partnership will benefit 200,000 
children, including 80,000 girls. The aim of the project is to provide 
safe learning spaces and gender-segregated sanitation facilities, 
mitigate the psychological effects of conflict and violence on 
children, train teachers in psychosocial support, support out-of-school 
youth and adolescents with an accelerated learning program including 
life skills, and disseminate information on self-protection, including 
protection against GBV, health, and peace education.
    Due to sensitivities around reporting sexual and gender-based 
violence that are exacerbated during times of conflict, it is 
impossible to know the exact number of people who have experienced 
these crimes and require aid. However, we do know that thousands of 
displaced people, particularly in Unity and Upper Nile states, remain 
inaccessible or infrequently accessible due to insecurity. USAID is 
actively working to increase the reach of our partners by exploring 
ways to safely expand mobile and community-based services for women and 
girls, although scaling up these services will only be possible if the 
security situation allows. We have also been working with our 
diplomatic colleagues to advocate with state and local officials for 
unhindered access to populations in need. Following these 
conversations, UNMISS has established a temporary operating base in 
Leer County, Unity State, in an effort to provide a protective presence 
in one of the areas that has been hardest to reach throughout the 
conflict. In addition, a recent aid mission to the most conflict-
affected counties in Unity State has enabled humanitarian organizations 
to more thoroughly assess acute needs, begin emergency response 
interventions and plan for sustained and increased service provision 
where access and security conditions allow.
    The 2015 South Sudan Humanitarian Response Plan, which outlines the 
humanitarian community's funding requests for the year, requested $60 
million for protection activities. As of mid-December, international 
donors had provided approximately $39 million for protection 
activities, amounting to 65 percent of the request.

    Question.  The State Department has documented violations of 
democratic freedoms since 2012, including ``corruption, harassment of 
nongovernmental organizations (NGOs) and attacks on their workers, 
illegal detentions, intimidation of journalists, and detention by 
security forces.''

  <diamond> As I understand it, there is nearly $25 million available 
        this fiscal year for democracy and governance programming in 
        South Sudan. How are we going to use that money? Have we been 
        able to effectively program such funds in the midst of the 
        conflict?

    Answer. The $25 million in Economic Support Funds (ESF) for 
democracy and governance programming in South Sudan is shared between 
USAID and State Department with a goal of promoting peace, reducing 
conflict, building and protecting independent media, supporting 
reconciliation, enabling local resilience and furthering access to 
justice.
    While the conflict has presented challenges to democracy and 
governance and peacebuilding programs, USAID has continued to 
effectively program such funds in an increasingly polarized 
environment. Despite these challenges, USAID assistance over the last 
two years of civil war has enabled nascent civil society actors to 
promote dialogue on key issues related to implementation of the peace 
agreement and governance issues, such as sensitization on the content 
of the peace agreement, advocacy on contentious legislation, such as 
the NGO Bill, and build internal organizational capacity. In addition, 
USAID support to community and FM radio has extended the reach of free 
and independent information to communities affected and divided by 
conflict. Also, due to USAID's long-standing ties to South Sudanese 
communities that pre-date the current conflict, our nimble operating 
partners have been able to build trust with communities and effectively 
program sensitive activities that pursue peace and strengthen the voice 
of the South Sudanese. USAID remains closely engaged with local 
stakeholders and international partners to exploit windows of 
opportunity that exist and emerge as the implementation of the August 
2015 peace agreement progresses.
    USAID's democracy and governance funding, roughly $23.5 million of 
the $25 million, will be used to support ongoing and emergent 
initiatives aimed at reducing inter- and intra-communal tension, 
building trust and preventing the further spread of local-level 
conflict, as well as continued support to civil society and the media 
to counter closing political space. Through established programs, USAID 
will use democracy and governance funds to promote access to reliable 
information for communities, including in critical geographic areas, in 
order to counter political manipulation and misinformation that could 
lead to further tensions and conflict. USAID will continue its support 
to Eye Radio, a network of community radio stations that broadcast 
mostly in local languages and the Humanitarian Information Service, 
which provide information to populations displaced by conflict. 
Simultaneously, USAID will expand radio coverage and transition these 
media outlets to local, South Sudanese ownership to ensure 
sustainability. Eye Radio was the only South Sudanese media outlet to 
provide live coverage of the peace negotiations in Addis Ababa, and the 
USAID-funded radio network is critical to disseminating balanced and 
accurate information on a range of peace and development issues in 
South Sudan.
    USAID support to civil society will advance its capacity to 
participate in political processes, including implementation of the 
peace agreement, and provide civic education to counter ethnic 
polarization. USAID will continue to train civil society organizations 
to operate in an insecure environment and to provide safe meeting space 
and Internet access through an expanding network of Civic Engagement 
Centers around the country (currently operating in Juba and Wau, and 
planned to open soon in Yambio). Additionally, these funds will be used 
to help communities mitigate disputes, promote peace messages and 
strengthen tools and resources necessary to build trust and resolve 
problems without resorting to violence. Funds will also advance 
important peacebuilding and reconciliation efforts. Illustrative 
activities include civil society monitoring of and disseminating 
objective information about the peace agreement, providing logistical 
support to locally driven peace initiatives and expanding trade as 
means to strengthen positive inter-communal relationships. USAID will 
also use these programs to lay the foundation for healing and 
reconciliation by helping communities understand how trauma has 
perpetuated historical tensions and identify internal divisions that 
hinder their ability to reconcile. USAID is currently exploring 
additional opportunities to support reconciliation efforts through 
engagement of faith-based leaders and organizations.
    The Department of State, though the Office of the U.S. Special 
Envoy manages a portion of the Democracy and Governance ESF funding, 
which will be utilized to support human rights abuse investigation and 
documentation or the establishment of a credible accountability 
mechanism, such as a hybrid court per the Agreement on the Resolution 
of Conflict in South Sudan. In addition, INCLE funds are used to 
support Rule of Law and Justice programming, including a grant that 
trains paralegals to provide legal guidance to South Sudanese citizens 
in rural areas and communities who seek justice through local and 
traditional mechanisms. Pending final negotiations of the transitional 
security arrangements, State Department's Bureau for International 
Narcotics and Law Enforcement is also considering projects to assist 
rule of law mechanisms to support security and justice during the 
transition, including detention facilities and legal processes for 
individuals arrested or detained by the new Joint Integrated Police.

                                 ______
                                 

          Responses to Questions for the Record Submitted to 
              Ambassador Princeton Lyman by Senator Cardin

    Question. To date, few of the provisions of the peace agreement 
have been implemented. It is unclear that the leaders of either of the 
warring factions are committed to full implementation.

  <diamond> Can the country ever move forward politically with Salva 
        Kiir and Riek Machar part of the leadership, or must they step 
        aside in order for a sustainable peace in the country?
  <diamond> What steps can the United States and International 
        Community take to

    Answer. It is questionable that either Salva Kiir or Riek Machar 
could regain the credibility and support to lead the country through 
the kind of transformation that the country needs. This is especially 
true given the ethnic violence with which both have been associated. 
Nevertheless, to end the fighting it was deemed necessary by IGAD to 
bring the two together in a transitional government. Both will try to 
use that opportunity to position themselves for a presidential run in 
the next election. The way to ease them out of that expectation would, 
in my view, to bring forward the work of the Hybrid Court to begin 
investigation and adjudication of the crimes cited in the Commission of 
Inquiry report. In that process, while other transformation steps take 
place, it should become clear that each of these leaders has forfeited 
the right to run and must step aside, indeed that their running could 
reignite the conflict. JMEC should use its authority to persuade or 
disqualify them.
    But others around them should also be dealt with by the Court, 
making room for a fresh set of candidates in the next election.

    Question. Given the role government forces have played in some of 
the abuses and the insufficient government efforts to prosecute abuses, 
how, and when, should the United States reengage with the security 
sector? What conditions should the United States put in place before 
starting security sector reform?

    Answer. Security sector reform will be extremely difficult to 
implement until there is a clear path toward political reformation and 
a process of reconciliation. In the meanwhile, troops will need to be 
cantoned. There, they can be counted, organized for DDR, and given the 
options of registering to return to civilian life. Once it is possible 
to begin the DDR process, it would be better for the U.N. to take the 
lead. It would be difficult for the US to clear almost any of the 
current forces under the Leahy guidelines making US engagement quite 
difficult.

    Question. How can we ensure that DDR is fully implemented in the 
wake of the peace agreement? What specific lessons can be applied from 
past DDR processes in South Sudan?

    Answer. DDR failed earlier in South Sudan because (a) the 
government was still engaged in border disputes and confrontation with 
Sudan, and (b) the SPLA was in fact a confluence of militia, each under 
the command of an autonomous general, which was the way Kiir united the 
country before the referendum. Thus neither the government, nor the 
individual militia commanders were prepared to cut back their own 
forces. I doubt there will be much of any progress on DDR until a new 
political dispensation has been established, assurances made to various 
ethnic groups that their grievances will be addressed, and the U.N. 
given the authority and the resources to carry it out. Even then, it 
will take years, and the overall JMEC structure should remain in place 
to monitor it throughout that time.

    Question. The problem of grand corruption is not unique to South 
Sudan, but it is certainly one of the underlying factors contributing 
to the current conflict.

  <diamond> What specific actions should the Transitional Government 
        take to establish financial transparency mechanisms?
  <diamond> What steps should the United States government take to 
        support these efforts?

    Answer. The peace agreement provides for an oversight mechanism for 
financial management, on which the US and other donors have a seat. But 
the Transitional Government, under Kiir and Machar, still has 
considerable operating authority over the budget. I would rather have 
seen an independent management for revenue and budgeting. The US will 
have to be vigorous and demanding in pressing the planned oversight 
role and prepared to ask for strengthening it at the first sign of 
serious corruption. The U.N. sanctions committee should also be asked 
to continue its investigations into obstacles to the peace, with 
special attention to any arms purchases being made by wither side. Such 
purchases in themselves should be occasion for establishing stronger 
outside management. Ideally, but difficult to get both China and Sudan 
to agree, oil proceeds--the principle revenue for the government--
should be put in escrow and released only under international 
direction.



                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
